<html>
<title> - THE FISCAL YEAR 2014 ENVIRONMENTAL PROTECTION AGENCY BUDGET</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
      THE FISCAL YEAR 2014 ENVIRONMENTAL PROTECTION AGENCY BUDGET 

=======================================================================



                             JOINT HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                AND THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 16, 2013

                               __________

                           Serial No. 113-42


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

82-194 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
PHIL GINGREY, Georgia                JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana                  Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
CORY GARDNER, Colorado               BRUCE L. BRALEY, Iowa
MIKE POMPEO, Kansas                  PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
STEVE SCALISE, Louisiana             BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               PAUL TONKO, New York
JOSEPH R. PITTS, Pennsylvania        EDWARD J. MARKEY, Massachusetts
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
BILL CASSIDY, Louisiana              MICHAEL F. DOYLE, Pennsylvania
PETE OLSON, Texas                    JOHN BARROW, Georgia
DAVID B. McKINLEY, West Virginia     DORIS O. MATSUI, California
CORY GARDNER, Colorado               DONNA M. CHRISTENSEN, Virgin 
MIKE POMPEO, Kansas                      Islands
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)
                                 ------                                

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
PHIL GINGREY, Georgia                PAUL TONKO, New York
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               GENE GREEN, Texas
JOSEPH R. PITTS, Pennsylvania        DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
ROBERT E. LATTA, Ohio                JERRY McNERNEY, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              JANICE D. SCHAKOWSKY, Illinois
DAVID B. McKINLEY, West Virginia     JOHN BARROW, Georgia
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               HENRY A. WAXMAN, California, ex 
JOE BARTON, Texas                        officio
FRED UPTON, Michigan, ex officio



  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     2
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     3
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     4
    Prepared statement...........................................     5
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     6
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     7
    Prepared statement...........................................     8
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     9
    Prepared statement...........................................    10
Hon. Adam Kinzinger, a Representative in Congress from the State 
  of Illinois, prepared statement................................    53

                               Witnesses

Bob Perciasepe, Acting Administrator, U.S. Environmental 
  Protection Agency..............................................    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................    58

                           Submitted Material

Statement of former EPA administrator Al Armendariz, submitted by 
  Mr. Hall.......................................................    54
Charts submitted by Mr. Gardner..................................    55


      THE FISCAL YEAR 2014 ENVIRONMENTAL PROTECTION AGENCY BUDGET

                              ----------                              


                         THURSDAY, MAY 16, 2013

                  House of Representatives,
                  Subcommittee on Energy and Power,
                                             joint with the
       Subcommittee on Environment and the Economy,
                           Committee on Energy and Commerce
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:05 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the Subcommittee on Energy and Power) 
presiding.
    Present from Subcommittee on Energy and Power: 
Representatives Whitfield, Scalise, Shimkus, Pitts, Terry, 
Burgess, Latta, Cassidy, Olson, McKinley, Gardner, Pompeo, 
Griffith, Barton, Upton (ex officio), Rush, McNerney, Barrow, 
Matsui, Christensen, Castor, and Dingell.
    Present from Subcommittee on Environment and the Economy: 
Representatives Shimkus, Gingrey, Hall, Murphy, Harper, 
Bilirakis, Johnson, Tonko, Green, DeGette, Capps, Matsui, and 
Waxman (ex officio).
    Staff present: Nick Abraham, Legislative Clerk; Charlotte 
Baker, Press Secretary; Allison Busbee, Policy Coordinator, 
Energy and Power; Jerry Couri, Senior Environmental Policy 
Advisor; Patrick Currier, Counsel, Energy and Power; Brad 
Grantz, Policy Coordinator, Oversight and Investigations; Tom 
Hassenboehler, Chief Counsel, Energy and Power; Ben Lieberman, 
Counsel, Energy and Power; David McCarthy, Chief Counsel, 
Environment/Economy; Brandon Mooney, Professional Staff Member; 
Mary Neumayr, Senior Energy Counsel; Andrew Powaleny, Deputy 
Press Secretary; Chris Sarley, Policy Coordinator, Environment 
and Economy; Peter Spencer, Professional Staff Member, 
Oversight; Phil Barnett, Democratic Staff Director; Alison 
Cassady, Democratic Senior Professional Staff Member; Greg 
Dotson, Democratic Energy and Environment Staff Director; 
Kristina Friedman, EPA Detailee; and Caitlin Haberman, 
Democratic Policy Analyst.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to call the hearing to order 
this morning, and today's topic is the Environmental Protection 
Agency's fiscal year 2014 budget. We are delighted that the 
Acting Administrator, Mr. Perciasepe, is here with us today, 
and had a nice meeting with him yesterday as well, and we look 
forward to his testimony, and we really look forward to the 
question-and-answer period as well. So we welcome him, and I 
will recognize myself for 5 minutes for--oh, 3? I only get 3 
minutes. I recognize myself for 3 minutes for an opening 
statement.
    This morning's hearing is on the Environmental Protection 
Agency's proposed budget for fiscal year 2014. I might say in 
the beginning that I don't think America needs to take a back 
seat to any country in the world when it comes to doing an 
effective job of maintaining a clean environment, whether it is 
water, hazardous air pollutants, ozone, ambient air quality 
standards, clean air, whatever it might be, and even our 
CO<INF>2</INF> emissions are lower than they have been in 20 
years.
    Now, the budget for the EPA this year request is $8.153 
billion, and the Obama Administration EPA has been as 
aggressive as any agency in the federal government in recent 
years. As a matter of fact, in 2012, EPA finalized 635 rules 
spanning 5,637 pages in the Federal Register, and I think this 
Administration has demonstrated an ability to take each tax 
dollar given to it and return to the American people many more 
dollars in regulatory cost. The Utility MACT Rule alone has 
been estimated by the Agency, which many people say is 
conservative, to cost $9.6 billion annually, more than the 
entire budget proposal for the Agency, and this rule is but one 
of many recent EPA measures targeting coal-fired electric 
generation.
    Now, President Obama talks about an all-of-the-above 
policy, and yet his Administration is doing everything possible 
to eliminate coal from the equation. The rules already issued 
have closed down over 289 coal-powered plants.
    And these regulations go way beyond just coal. EPA's new 
CAFE rules for cars and small trucks are estimated by the 
Agency to cost $210 billion by 2025. Now, we know that there 
are benefits but we also know that when fully implemented these 
rules alone will add nearly $3,000 to the sticker price of an 
automobile. And so you ask the question, when do you reach a 
point of diminishing returns. We know that there are benefits 
from these regulations but the costs are also very real and 
many people lose jobs, many people lose their health benefits 
because of losing their jobs, and frequently, EPA does not even 
consider those costs.
    So this is going to be an interesting hearing. I know that 
members of this subcommittee have many questions on both sides 
of the aisle, and we look forward to Mr. Perciasepe's testimony 
and to the question-and-answer period.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    This morning's hearing is on the Environmental Protection 
Agency's proposed budget for Fiscal Year 2014. And we are 
pleased to be joined by Acting Administrator Bob Perciasepe to 
discuss the administration's $8.153 billion dollar proposal.
    A clean environment is very important to us all, and I am 
proud of the improvements in air and water quality that we have 
seen in Kentucky and across the U.S. over the past forty years. 
And we all want to see continued progress. For this reason, we 
need to be especially critical of those EPA budget items that 
are unwise and wasteful and a detour from the core mission, and 
unfortunately there appear to be several of them.
    And while $8.153 billion dollars may seem like a small part 
of the Obama administration's massive overall budget proposal, 
my concern is not only over the expenditures themselves but 
also with what the agency intends to do with the money. Indeed, 
the Obama administration's EPA has demonstrated an ability to 
take each tax dollar given to it and return to the American 
people many more dollars in unnecessary regulatory costs.
    The Utility MACT rule alone has been estimated by the 
agency to cost $9.6 billion dollars annually, more than the 
entire budget proposal. And this rule is but one of many recent 
EPA measures targeting coalfired electric generation. These 
rules have already resulted in plant shutdowns and lost jobs, 
and they may lead to higher electric bills and reliability 
issues as well.
    And the regulations go beyond those aimed at coal. EPA's 
new CAFE/GHG rules for cars and small trucks are estimated by 
the agency to cost $210 billion dollars by 2025. When fully 
implemented they will add nearly $3,000 to the sticker price of 
a new vehicle. And this rule is just one part of EPA's global 
warming regulatory agenda that is increasingly looking like a 
very bad deal for the American people and the middle class 
citizens who rely on affordable and abundant energy resources.
    Granted, the agency routinely claims regulatory benefits in 
excess of the costs. But while the costs are very real, the 
benefits are more speculative and are often based on inflated 
estimates of hypothetical lives saved from reducing fine 
particular matter. According to a recent draft OMB report, 
EPA's claimed benefits from its air rules alone far eclipses 
the benefits of all other federal regulatory agencies combined. 
This simply does not pass the laugh test.
    These benefits estimates are especially dubious given that 
the Clean Air Act has been in place since 1970 and many of the 
new rules add to already-strict existing measures. For example, 
coal-fired power plants were sharply reducing their emissions 
of air pollutants well before the Obama EPA launched its wave 
of new coal regulations. And the agency's proposed new Tier 3 
regulations to reduce sulfur in gasoline comes after Tier 2 
regulations have already lowered them by 90 percent. The 
pattern of new agency rules imposing rising costs but 
diminishing or nonexistent marginal returns is very worrisome.
    While the economic stakes of many EPA rules are quite high, 
the level of transparency and accountability is not. That is 
one reason why my colleague Dr. Cassidy has introduced H.R. 
1582, the Energy Consumers Relief Act. This bill would provide 
for Department of Energy review of all energy-related EPA 
regulations costing a billion dollars or more, and protect the 
economy from job losses, higher energy prices, and other 
adverse impacts.
    The goal of that bill is the same as the goal of this 
hearing--to ensure that EPA is on the right path for the 
environment as well as the economy.

                                #  #  #

    Mr. Whitfield. At this time I will recognize the gentleman 
from Illinois for 3 minutes.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, and I 
certainly want to thank you, Acting Administrator Perciasepe, 
for being here today, and I also want to take a moment to thank 
all the good people over at the EPA for all their hard work and 
all their dedication protecting the public health on behalf of 
the American people.
    Mr. Administrator, I do not envy the task that you all face 
over at the EPA, being responsible for protecting the Nation's 
land, air and water, especially in a place of cut after cut, 
criticism after criticism, charge after charge. But I know one 
thing: the people of my State in Illinois, particularly the 
people in a place called the village of Crestwood, located in 
my district, certainly appreciate all the work that you do. EPA 
played a critical role in helping to finally bring to justice 
the public officials who are responsible for illegally pumping 
contaminated water into the homes of my constituents in the 
village of Crestwood for over 20 years from 1986 to 2007, and 
this unlawful act, these actions were investigated and brought 
to light by an ordinary citizen, Tina Quaff, whose courage and 
tenacity helped bring this atrocity to the attention of the 
public and to my attention. And after I wrote a letter to then-
Administrator Lisa Jackson in April 2009 calling for a federal 
investigation, U.S. EPA played a crucial role by working with 
the Justice Department to execute search warrants and to 
commence raids on government facilities in order to unearth the 
full extent of these appalling criminal acts. Due largely to 
the U.S. EPA's role, just last month on April 29, 2013, 
Crestwood officials including the water department supervisor 
and a certified water operator were found guilty of lying about 
covertly mixing contaminated well water into the village's 
drinking water supply and now they are facing lengthy prison 
sentences as a result of their shameful actions of using the 
public trust.
    Mr. Chairman, I can't do anything but applaud Acting 
Administrator Perciasepe, former Administrator Jackson and all 
the other hardworking individuals over at the EPA. They have 
done a fine job, and they have done in this instance and in 
other instances, they have done a job that the American people 
expect them to do, and that is to protect the American people's 
health, protect their public safety and protect the 
environment, and Mr. Perciasepe, I want to thank you and your 
Agency for some outstanding work.
    Thank you, and I yield back the balance of my time.
    Mr. Whitfield. The gentleman's time is expired. At this 
time I will recognize the chairman of the Environment and the 
Economy Subcommittee, Mr. Shimkus, for 3 minutes.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. Thank you, Mr. Chairman, and I want to welcome 
Acting Administrator Perciasepe here, Bob. I didn't see you at 
baseball practice this morning. We did talk a little baseball 
yesterday but we were out there at 6:30, so we missed you. But 
thanks for coming to this oversight hearing on the budget. 
There are a lot of things we are going to want to know and 
follow, and especially what the Agency is doing at its core 
statutory authorized programs, whether it is sticking to 
Congressional intent or whether hardworking American tax 
dollars are being used to appropriately, effectively, and 
efficiently protect against significant risks to human health 
and the environment, based on the best available and valid 
science, and whether these laws are enforced fairly and 
effectively. ``Fairly and effectively'' is in vogue right now 
as we see issues of other agencies.
    In fact, tomorrow, the subcommittee that I chair will be 
holding a legislative hearing on small changes to the 
Superfund, which we sort of addressed yesterday. This law was 
enacted to clean up the most hazardous waste sites in America, 
yet after almost 33 years, more than 1,300 sites, and billions 
of dollars spent, less than 37 percent of these sites have been 
completely cleaned up, and of course, that is not acceptable. 
We are glad for the ones that have been totally cleaned up but 
there are still many remaining.
    Just doing things a certain way because that is how we have 
always done them is not a viable excuse. We need to do a better 
job. We need to recognize advancements in technology, reward 
innovation, cut red tape, and leverage the expertise of state 
regulators. A case in point is E-Manifest, and I am pleased 
Congress was finally able to get these changes into law last 
year and I applaud the Agency's budget for committing resources 
to its usage. We should not stop there, and I am also 
encouraged by the greater use of the Internet and other e-
technologies to modernize EPA reporting programs, including the 
guidance supporting Consumer Confidence Reporting under the 
Safe Drinking Water Act.
    On the other hand, I do not believe this is the time for 
EPA to launch new programs when there is clear evidence it must 
focus on its legally mandated responsibilities and doing a 
better job on them within the current budget climate. I want to 
know more about how EPA wants to use newer technologies to 
transform existing programs, the Agency's capitalization goals 
for the drinking water State Revolving Funds and whether we are 
getting closer to a sustainable SRF program, and the specific 
timeline for EPA before released Integrated Risk Information 
Systems assessments have fully, not partially, implemented the 
important National Academy of Sciences recommendations.
    I appreciate that EPA styles itself as a science agency, 
but its deployment of that science should be beyond reproach. 
Unfortunately, external review boards have repeatedly called 
this science into question. To truly protect the public from 
harm as well as unnecessary negative economic outcomes, we need 
an unbiased, valid process educating policymakers about the 
science, not policymakers dictating that science.
    Again, I want to thank you for coming, for being in the 
committee today. I hope you and the EPA will welcome our 
oversight efforts as a way to openly inform Congress and the 
American people about the Agency's efforts and all its 
activities, and I want to end by saying, we have developed a 
pretty good relationship with some folks in the EPA on 
legislation. We look forward to continuing to do so in the 
future, and with that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    I too want to welcome Mr. Perciasepe to our committee for 
this joint hearing on the proposed budget and operations plans 
of the EPA in fiscal year 2014.
    We very much want to know what the agency is doing in its 
core, statutorily authorized programs; whether it is sticking 
to congressional intent; and whether hard working Americans' 
tax dollars are being used to appropriately, effectively, and 
efficiently protect against significant risks to human health 
and the environment, based on the best available and valid 
science, and that these laws are enforced fairly and 
effectively.
    In fact, tomorrow, the subcommittee I chair will be holding 
a legislative hearing on small changes to Superfund. This law 
was enacted to clean-up the most hazardous waste sites in 
America, yet after almost 33 years, more than 1300 sites, and 
billions of dollars spent, less than 37 percent of these sites 
have been completely cleaned up. That is not acceptable.
    Just doing things a certain way because that's how we've 
always done it not a viable excuse; we need to do better, 
recognize advancements in technology, reward innovation, cut 
red tape, and leverage the expertise of state regulators.
    Case in point is E-Manifest. I am pleased Congress was 
finally able to get these changes into law last year and 
applaud the agency's budget for committing resources to its 
usage. We should not stop there and I am also encouraged by the 
greater use of the Internet and other e-technologies to 
modernize EPA reporting programs, including the guidance 
supporting Consumer Confidence Reporting under the Safe 
Drinking Water Act.
    On the other hand, I do not believe this is the time for 
EPA to launch new programs when there is clear evidence it must 
focus on its legally mandated responsibilities and doing a 
better job on them within the current budget climate. I want to 
know more about:
    <bullet> How EPA wants to use newer technologies to 
transform existing programs.
    <bullet> The agency's capitalization goals for the drinking 
water State Revolving Funds and whether we are getting closer 
to a sustainable SRF program, and
    <bullet> The specific timeline for EPA before released 
Integrated Risk Information Systems assessments have fully, not 
partially, implemented the important National Academy of 
Sciences recommendations.
    I appreciate EPA styles itself as a science agency, but its 
deployment of that science should be beyond reproach. 
Unfortunately, external review boards have repeatedly called 
this science into question. To truly protect the public from 
harm as well as unnecessary negative economic outcomes, we need 
an unbiased, valid process educating policymakers about the 
science, not policymakers dictating that science.
    Again, I want to thank Mr. Perciasepe for being with the 
committee today. I hope he and EPA will welcome our oversight 
efforts as a way to openly inform Congress and the American 
people about the agency's efforts and all its activities.

                                #  #  #

    Mr. Whitfield. Thank you. At this time I will recognize the 
gentleman from New York, Mr. Tonko, the ranking member on the 
Subcommittee on Environment and the Economy, recognize him for 
3 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair. Good morning. Thank you, 
Chair Whitfield and Chair Shimkus, for holding this hearing on 
the Environmental Protection Agency's budget request for 2014, 
and welcome, Acting Administrator Perciasepe. Thank you for 
being here today.
    The Environmental Protection Agency has brought us a long 
way since it was established by President Nixon in 1970. 
Congress has enacted environmental laws to protect our water, 
our air, our soil and food supply, and EPA has implemented 
them. Public health and a clean environment are inextricably 
linked. Our economy and our population have grown considerably 
over the past four decades, demonstrating that environmental 
protection is compatible with economic growth. In fact, if we 
are willing to make investments in environmental infrastructure 
such as drinking water treatment and delivery, source water 
protection, sewage treatment and waste-to-energy systems, we 
can create thousands of jobs and improve the conditions of our 
rivers, our lakes and our coastlines. If we do not make these 
investments, we risk damaging the resources that we require to 
support a healthy, modern society.
    Thoughtless policies like sequestration that blindly cut 
programs with no regard to their benefit or impact on the 
public, the environment or the economy will not put our fiscal 
house in order and can cause extreme damage. Our failure to 
repair vital infrastructure and to address the complex 
challenge of climate change has already cost us a great deal. 
Infrastructure does not repair itself, and the pace and impact 
of climate change are increasing. We need to address these 
issues now before the costs rise even further.
    The Administration and the Congress should work together to 
ensure that we maintain and improve upon our record of 
environmental protection. EPA's budget is an important part of 
that effort, and I look forward to your testimony here, 
Administrator Perciasepe, and to working with you and the 
Agency to continue our progress in environmental protection. We 
have a uniqueness here to that Agency. We have tremendous 
mission statements associated with it, and we have an economy 
to grow. So I look forward to again working with you and the 
professionals at EPA.
    With that, Mr. Chair, I yield back.
    Mr. Whitfield. Thank you very much.
    At this time I recognize the chairman of the full 
committee, Mr. Upton, for 3 minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman, and I want to 
begin by acknowledging and applauding the success of our 
Nation's efforts to protect and improve our environment over 
the years. Under existing regs, our air quality has improved 
dramatically. In fact, this is something that our entire 
country should be proud of. EPA reports that total emissions of 
toxic air pollutants decreased by about 42 percent between 1990 
and 2005, and that between 1980 and 2010, total emissions of 
the six principal air pollutants dropped by 63 percent.
    However, with that success--some might even say in spite of 
it--the number and scope of EPA regs is continuing to grow 
without precedent. This administration is seeking to regulate 
where they failed to legislate, and they are doing so at a 
furious pace. According to our staff's review, the Agency 
issued over 600 final rules in 2012, bringing the 4-year total 
to more than 2,000. Even more striking than the number of new 
rules is their unaffordable cost. A recent draft by OMB noted 
that a disproportionate number of the federal government's 
costliest regs in fact come from the EPA, and especially its 
Air Office. Rules costing at least a billion dollars are no 
longer uncommon, and the Nation's struggling economy sadly has 
to absorb them. And while the cost and expansiveness of EPA 
rules has increased, the level of transparency about those 
rules appears to have diminished. Even the billion-dollar rules 
are issued with more questions than answers, and sometimes that 
final rule is a big departure from the proposed version. 
Sometimes the underlying scientific justification is considered 
confidential and not disclosed. Frequently, the cost data is 
incomplete and the claimed benefits are speculative and poorly 
supported. And quite often, the regulated community is not 
given sufficient guidance as to how they can comply.
    And while the Administration is aggressively pursuing 
regulations within its own jurisdiction, it is also extending 
its reach beyond. It is continuing to ramp up its greenhouse 
gas regs, which have the potential to change the way we power 
our grid by limiting fuel diversity as well as how we permit 
new industrial facilities.
    Another unwelcome example is the Agency's 11th-hour effort 
to needlessly delay the Keystone XL approval process and the 
jobs that landmark project would create.
    I fear the consequences of EPA's aggressive regulatory 
expansion for job creation and energy prices, and especially 
the disproportionate burden on low-income households. That is 
why I supported the Energy Consumers Relief Act, which would 
put energy policy back in the hands of the agency with energy 
in its name, the Department of Energy, by giving DOE the lead 
role in reviewing all energy-related EPA rules that have in 
fact a billion-dollar price tag.
    EPA does have an important role to play in implementing the 
Clean Air Act and other federal environmental statutes, and 
doing so in the manner that Congress envisioned. So I hope this 
hearing is the first step toward getting the agency on that 
course, and I yield back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    I want to begin by acknowledging and applauding the success 
of our nation's efforts to protect and improve our environment 
over the years. Under existing regulations, our air quality has 
improved dramatically. This is something that our entire 
country should be proud of--EPA reports that total emissions of 
toxic air pollutants decreased by approximately 42 percent 
between 1990 and 2005 and that between 1980 and 2010, total 
emissions of the six principal air pollutants dropped by 63 
percent.
    However, with that success--some might even say in spite of 
it--the number and scope of EPA regulations is continuing to 
grow without precedent. The Obama administration is seeking to 
regulate where they failed to legislate, and they are doing so 
at a furious pace. According to our staff's review, the agency 
issued over 600 final rules in 2012, bringing the four-year 
total to more than 2,000.
    Even more striking than the number of new rules is their 
unaffordable cost. A recent draft OMB report noted that a 
disproportionate number of the federal government's costliest 
regulations come from EPA, and especially its air office. Rules 
costing at least one billion dollars are no longer uncommon, 
and the nation's struggling economy must absorb them.
    And while the cost and expansiveness of EPA rules has 
increased, the level of transparency about those rules appears 
to have diminished. Even the billion dollar rules are issued 
with more questions than answers. Sometimes, the final rule is 
a big departure from the proposed version. Sometimes, the 
underlying scientific justification is considered confidential 
and not disclosed. Frequently, the cost data is incomplete and 
the claimed benefits are speculative and poorly supported. And 
quite often, the regulated community is not given sufficient 
guidance as to how they can comply.
    And while the Obama EPA is aggressively pursuing 
regulations within its own jurisdiction, it is also extending 
its reach beyond. It is continuing to ramp up its greenhouse 
gas regulations, which have the potential to change the way we 
power our grid by limiting fuel diversity as well as how we 
permit new industrial facilities. Another unwelcome example is 
the agency's 11th hour effort to needlessly delay the Keystone 
XL approval process and the jobs the landmark project would 
create.
    I fear the consequences of EPA's aggressive regulatory 
expansion for job creation and energy prices, and especially 
the disproportionate burden on low-income households. That is 
why I support the Energy Consumers Relief Act, which would put 
energy policy back in the hands of the agency with energy in 
its name--the Department of Energy--by giving DOE the lead role 
in reviewing all energy-related EPA rules that have a billion 
dollar price tag.
    EPA has an important role to play in implementing the Clean 
Air Act and other federal environmental statutes, and doing so 
in the manner that Congress envisioned. I hope this hearing is 
the first step toward getting the agency back on course.

                                #  #  #

    Mr. Whitfield. At this time I would like to recognize the 
ranking member of the full committee, Mr. Waxman of California, 
for 3 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman.
    Acting Administrator Perciasepe, thank you for being here 
today and for your service to the Nation at the Environmental 
Protection Agency.
    EPA is making our air safer to breathe and our water safer 
to drink. The agency is on the frontline of our national effort 
to address climate change. It is a huge responsibility and one 
that all Americans are counting on you to carry out. I want to 
take this opportunity to urge you to do everything you can to 
control carbon pollution. Many different sources and activities 
contribute to this problem, and we will not be able to address 
it unless we make reductions across the board. Power plants are 
of course the largest source of emissions, but so are other 
major sources like methane from coal mines and oil and gas 
production. You need to find a way to address all major 
sources.
    Despite the critical importance of your work, the EPA 
budget represents a tiny portion of overall federal spending. 
Under the President's proposal for fiscal year 2014, EPA 
funding would be less than one-quarter of 1 percent of the 
federal budget. And EPA would share almost 40 percent of these 
funds with the States and tribes to help them implement federal 
environmental laws and achieve national goals.
    But today we will hear that the Agency's budget is too big. 
We will be told that we can't afford to invest in clean air, 
clean water or a safe climate. These extreme positions are 
endorsed by some very big polluters, but they aren't supported 
by the American people. American families want clean air and 
clean water. They don't want their health put at risk by 
exposure to toxic chemicals. They want their children and 
future generations to be protected from catastrophic climate 
change.
    We have just crossed a climate threshold. For the first 
time since humans have lived on our planet, atmospheric 
concentrations of carbon dioxide have surpassed 400 parts per 
million. Scientists tell us that we urgently need to act.
    But you wouldn't know that from this Committee because our 
Committee won't let the scientists come in and testify. Since 
the Republicans took over the House of Representatives, this 
Committee, which has primary jurisdiction over the climate 
issue, has refused to hear from scientists about why climate 
change is so serious.
    We need environmental policies that are based on the best 
science, not ideology. We need an EPA that has enough funds to 
ensure we keep our moral obligation to future generations. One-
quarter of 1 percent of our budget is not too much to spend on 
clean air, clean water and a healthy environment. In fact, it 
is clearly not enough. We need to spend the money. We need to 
make the commitment. We need to do the job despite those who 
would like us to abandon that effort and to give in to the 
polluters and let fossil fuels, like coal and oil, rule the day 
and cause problems for the future.
    I yield back, Mr. Chairman.
    [The prepared statement of Mr. Waxman follows:]

               Prepared statement of Hon. Henry A. Waxman

    Acting Administrator Perciasepe, thank you for being here 
today and for your service to the nation at the Environmental 
Protection Agency.
    EPA is making our air safer to breathe and our water safer 
to drink. The agency is on the frontline of our national effort 
to address climate change. It's a huge responsibility and one 
that all Americans are counting on you to carry out.
    I want to take this opportunity to urge you, Mr. 
Perciasepe, to do everything you can to control carbon 
pollution. Many different sources and activities contribute to 
this problem, and we will not be able to address it unless we 
make reductions across the board. Power plants are of course 
the largest source of emissions, but so are other major sources 
like methane from coal mines and oil and gas production. You 
need to find a way to address all major sources.
    Despite the critical importance of your work, the EPA 
budget represents a tiny portion of overall federal spending. 
Under the President's proposal for fiscal year 2014, EPA 
funding would be less than one-quarter of one percent of the 
federal budget. And EPA would share almost 40% of these funds 
with the states and tribes to help them implement federal 
environmental laws and achieve national goals.
    But today we will hear that the agency's budget is too big. 
We will be told that we can't afford to invest in clean air, 
clean water or a safe climate.
    These extreme positions are endorsed by big polluters, but 
they aren't supported by the American people. American families 
want clean air and clean water. They don't want their health 
put at risk by exposure to toxic chemicals.
    They want their children and future generations to be 
protected from catastrophic climate change.
    We have just crossed a climate threshold. For the first 
time since humans have lived on our planet, atmospheric 
concentrations of carbon dioxide have surpassed 400 parts per 
million. Scientists tell us that we urgently need to act.
    But you wouldn't know that from watching this Committee. 
Since the Republicans took over the House of Representatives, 
this Committee has refused to hear from scientists about why 
climate change is so serious.
    We need environmental policies that are based on the best 
science. And we need an EPA that has enough funds to ensure we 
keep our moral obligation to future generations. One-quarter of 
one percent of our budget is not too much to spend on clean 
air, clean water and a healthy environment. In fact, it's 
clearly not enough.

    Mr. Whitfield. That concludes the opening statements, and 
so Mr. Perciasepe, we appreciate once again your being with us 
today, and at this time I will recognize you for 5 minutes for 
your statement.

 STATEMENT OF HON. BOB PERCIASEPE, ACTING ADMINISTRATOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Perciasepe. Chairmen Shimkus and Whitfield, thank you 
so much. Ranking Members Rush and Tonko, thank you also for 
your comments, and the members, the ranking and chair of the--
--
    Mr. Whitfield. Would you mind moving the microphone just a 
little closer?
    Mr. Perciasepe. I think I got the button on but I guess I 
have to get closer. I was just thanking all the ranking members 
and chairmen that were here, if people didn't hear that. And if 
you invite me, I will come.
    Thank you for having this hearing on our 2014 fiscal year 
budget, as you pointed out, Mr. Chairman, $8.153 billion. This 
is to invest in clean air and clean water, clean land. These 
are pretty important responsibilities that EPA that have been 
given to us by Congress but we have also spent quite a bit of 
time on this budget looking at how we can be more efficient, 
how we can start looking at different ways to manage our work, 
and I am looking forward to talking about some of those during 
the course of our questions and answers.
    I just want to run through a couple of quick highlights 
here so we can get on with the questions and answers. First, I 
think it has already been mentioned the significant amount of 
our budget that our grant funds for both infrastructure and 
State environmental work and despite the fiscal challenges we 
face, we have maintained those funds in this budget and we have 
been able to increase the programmatic grants to the States by 
a slight amount in this budget, which is pretty important when 
you look at the spread of the responsibility for conducting the 
environmental work of the country, the mix between the federal 
and the State budgets and work.
    We have also requested a $60 million kick start to a 
program that we call e-Enterprise at EPA, and I appreciated 
Chairman Shimkus talking about the e-Manifest program that this 
Committee and others and the chairman in particular helped get 
through the Congress last year. We manage all the movement of 
hazardous waste in the country through paper. I used to think 
it was the pink and the blue and the yellow, you know, carbon 
copies, and what we are asking for in funds in this budget is 
to be able to start the process of getting that into something 
as ubiquitous in our lives these days as how L.L. Bean or 
anybody else moves their merchandise around, so we will be able 
to use electronic means and scanners to be able to keep track 
of the waste. But more importantly, on e-Enterprise, it is 
really looking at--it is not some big computer system. It is 
really looking at the business model of operating an agency 
that interacts with the public, interacts with the regulated 
community, interacts with the States in a way that we can 
conduct more of that business through the modern technology 
that is available today, and we believe that that will increase 
transparency, increase compliance. It will reduce errors in 
data transfer and it will result in widespread savings. We 
think the e-Manifest system, for instance, and I know that 
there has been testimony before the committee when you worked 
on the bill last year in the last Congress, we expect over time 
to be able to save at least $100 million to the regulated 
community on that part of it alone.
    We also have $176 million to support the work we are doing 
on greenhouse gases. This not only includes cost-effective and 
commonsense rulemaking like the automobile standards that were 
mentioned earlier that we did with the Department of 
Transportation but also programs that are tried and true and 
have had great effect like ENERGY STAR, the greenhouse gas 
reporting system, and SmartWay, which we do with the American 
trucking industry to look at ways to reduce the fuel and 
increase the fuel economy and therefore decrease the emissions 
from long-haul trucks.
    Nutrient pollution in water is a major issue confronting 
the country on a number of fronts, and we have in part of our 
State grant request $15 million to help the States get a jump 
start on moving forward with more work on that issue of 
nutrient pollution in water.
    We also have provided funds in the President's budget for 
the revolving funds. There is $1.1 billion for the Clean Water 
State Revolving Fund and $817 million for the Drinking Water 
SRF. But equally important in that program is work we are doing 
with cities and States to look at integrated planning at the 
municipal level to look at not only the most cost-effective 
approaches at solving problems there but also how you work on 
different types of water pollution problems at the same time so 
that you can find the most cost-effective ways. So stormwater 
and sewer problems, trying to work on those together in an 
integrated planning approach. So not only are we looking at how 
much funding we need but also we are looking at how we might be 
able to reduce the costs and the lifecycle costs over the long 
haul.
    We have $1.34 billion for land cleanup. This is Superfund 
and brownfields programs.
    Mr. Shimkus. Mr. Chairman, would you get the committee in 
order so the Acting Administrator can be heard?
    Mr. Whitfield. I am sorry.
    Mr. Perciasepe. I am almost done, Mr. Chairman, and I will 
try to be quick here.
    There is also $686 million for our work on chemicals from 
pesticides to chemicals in commerce. You know, we provide 
labeling for all the pesticides in use. We also have a number 
of savings that we have put in this budget and moved some of 
those funds out of the budget completely and some in to help 
fund some of these other programs I was mentioning. There are 
over 20 programs where we reduced the budget by over 10 
percent.
    And finally, I will just mention in addition to looking at 
more electronic tools and looking at programs that might be 
reduced, we are also looking at our space issues. We have 
reduced our space footprint already over the last 4 or 5 years, 
6 years, by about 400,000 square feet of space that we rent 
around the country and we are looking to continue that process 
as modern office design and modern laboratory design will move 
us in that direction. We have already saved almost $6 million a 
year in energy costs by reducing some of these spaces.
    So I am going to stop there. We have a balanced approach 
here that is looking at not only maintaining programs but also 
at looking at how we become more efficient for the long haul, 
recognizing what we all know about the funding issues that 
confront the Nation. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Perciasepe follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Whitfield. Mr. Perciasepe, thanks very much for your 
statement. At this time we will go into questions and answers, 
and I will recognize myself for 5 minutes for questions to 
begin with.
    The first comment I would like to make relates to sort of 
an administrative issue, and that is that last year when the 
Administrator came to testify about the budget, we had 
submitted a number of questions that we wanted to be answered 
as we worked with the appropriators and others trying to make 
some final decisions about budget numbers and so forth, and 
unfortunately, it took EPA nearly 11 months to respond to our 
questions. And so I would just ask for your commitment that you 
work with us on the questions we are going to be submitting 
after this hearing and hopefully maybe we can get an answer 
within 3 months or so instead of 11. So would you agree to work 
with us on that?
    Mr. Perciasepe. You have my commitment, Mr. Chairman, and I 
think we all recognize that the budget windows are tighter than 
they normally have been on top of what you suggested, so I will 
make sure that we put the effort necessary so that you have 
answers to your questions in the time frame that is going to be 
appropriate for you to work with the appropriators.
    Mr. Whitfield. Thank you very much. As you know, EPA has a 
proposed Greenhouse Gas New Source Performance Standard, and if 
that rule as proposed became final, it would be impossible to 
build a new coal-powered plant in America because the 
technology is simply not available to meet the emission 
standard. And as far as I know, we would be the only country in 
the world where you cannot build a new coal-powered plant, and 
by the way, I read the other day that in Europe they are 
getting ready to build 69 gigawatts of new coal-powered plants 
in Europe. So with our demand for increasing electricity, I 
would ask, number one, is EPA going to repropose this rule?
    Mr. Perciasepe. We are still in the process of looking at 
all the comment we got on that. A lot of the comment was in the 
vein that you are talking about here, Mr. Chairman, that what 
technologies are out there now for coal plants or oil-fired 
plants or natural gas plants. So we haven't made that kind of a 
decision at this time. We are still in the process of looking 
at what the framework might be.
    Mr. Whitfield. Well, I tell you what, I think it is going 
to be extremely difficult for the American people to accept the 
fact that a plant at Texarkana, Arkansas, that opened up in 
December of last year with the best available technology that 
it would not be able to meet the emissions standards set in 
this proposed rule and to believe that a country our size with 
the electricity demands that we have cannot build a coal plant 
using the best available control technology is almost 
unbelievable to me and many other people. And I would ask the 
question also, it is the first time that I am aware of that EPA 
ever set an emissions standard using one fuel source that would 
be applicable to another fuel source. I would ask the question: 
what is the legal justification for doing that?
    Mr. Perciasepe. I think the legal framework for that was 
laid out in the rule that was proposed, and this may sound a 
little repetitive and I really apologize, but we are looking at 
that issue along with all the other issues that have been 
brought up on this rule, and it is going to still require going 
through some interagency review process at the federal level. 
So we are looking at that particular issue, we are looking at 
the other issue you mentioned, and I want to be clear to the 
committee that we are not yet done figuring out how to finalize 
that rule.
    Mr. Whitfield. Well, I know that the agency is no stranger 
to lawsuits, and I know that there will be lawsuits filed for 
whatever, but one of the most contentious parts of this is the 
fact that you have this emissions standard that is applicable 
to more than one fuel source, and so I hope that you all will 
continue to look at that very seriously.
    Now, it is bad enough not being able to build a new coal-
powered plant but do you all have plans to set greenhouse gas 
standards for existing coal-powered plants?
    Mr. Perciasepe. We don't currently have a plan for existing 
plants because we have to finish what the performance standards 
would be for new plants of electric-generating facilities. I 
think contextually we should recognize that the two largest 
sources of greenhouse gases in the United States are vehicles 
and electric generation. And so it is pretty logical for the 
Agency to be looking at those sources at the outset on how we 
would manage it. I would note in addition to some of the points 
that you are making that need to continue to be looked at, that 
the Alliance to Save Energy recently came out with a report 
that looked at how energy efficiency and energy productivity 
could actually significantly reduce greenhouse gases just by us 
being better at using the electricity and fuel for cars that we 
have. So there are many different options here going forward, 
and I want to make sure that you all know that.
    Mr. Whitfield. Well, my time is expired but I am going to 
be submitting a question to you relating to the Navajo 
Generating Station in Arizona, which I think there are some 
real serious issues with. At this time I recognize the 
gentleman from Illinois, Mr. Rush, for 5 minutes.
    Mr. Rush. Again, thank you, Mr. Chairman.
    Mr. Perciasepe, as I stated in my opening statement, I 
commend you and your agency for the work you all do on behalf 
of the American people protecting our air quality, protecting 
our land and protecting our water quality, and as you are well 
aware, EPA's budget has been a favorite topic of my Republican 
colleagues who can't disband the Agency, as some of them would 
prefer. So they are overly and excessively critical of EPA. But 
I want you to be assured that there are millions of Americans 
who depend on your agency to be the stewards of the public 
health and the protectors of our environment.
    But once again, your resources are being depleted with the 
President's fiscal year 2014 budget, which requests a $325 
million decrease, or 3.8 percent reduction from the enacted 
level of fiscal year 2013, and a $296 million decrease, or 3.5 
percent decrease from the enacted level for 2012. In fact, Mr. 
Perciasepe, the President's current request is lower than the 
fiscal year 2004 enacted level, and these reductions will be 
felt by my constituents such as those in Crestwood and in other 
places throughout the Nation. Sometimes they will be felt at 
the level of life and death, and these are critical reductions. 
I would like to note that I am concerned about many issues but 
one of the issues that I am primarily concerned about, or two 
of the issues, are, one, poor people in general, minority 
communities and how, given your reductions, how do you 
strategize to deal with the issues of minorities and poor 
people in terms of keeping their standard of air quality, water 
quality and other environmental issues, keeping them in check 
or at bay. And I would like for you to specifically, if you 
would, respond to this enormous $9.8 million cut to the 
brownfields project. Would you please respond to those 
questions?
    Mr. Perciasepe. On the general question of looking at the 
disproportionate impacts that pollution has on society, this is 
something that is of critical interest to EPA. It is of 
critical interest to our State partners and also city 
governments where those are some of the areas where that may 
occur, and we are working carefully with our State partners to 
develop tools and techniques to do those kinds of analysis. One 
of the key tools we are using now is more robust community 
involvement in decision making so that we reach out to some of 
these communities who were not historically involved with the 
sort of normal government processes. So it is a combination of 
outreach improvement and analytical tools that we can use to 
analyze the potential for disproportionate impact of pollution, 
and we are building these analyses into some of our rulemaking 
processes so that we can avoid and find ways to mitigate when 
those impacts might happen. So it is very much on our mind, and 
we are----
    Mr. Rush. Well, what is going to happen to the brownfields 
program at EPA, given these drastic cuts to EPA?
    Mr. Perciasepe. Which program?
    Mr. Rush. Brownfields.
    Mr. Perciasepe. Brownfields? Well, the brownfields program 
is reduced slightly in this budget from the enacted 2012 and 
obviously it was reduced in 2013 by the sequestration process, 
but it will slow down. It is an oversubscribed program. It is 
one that brings land in developed areas that had been used in 
the past, it brings it back into productive use, sometimes for 
manufacturing. In fact, that is one of the things we are 
working on in an Administration-wide manufacturing initiative, 
but it also sometimes comes in for other community-related 
uses. So yes, the brownfield program is robust, it is in the 
budget, but it will be a reduced amount and so there will be 
fewer brownfields projects in 2014.
    Mr. Whitfield. The gentleman's time is expired. At this 
time I will recognize the gentleman from Illinois, Mr. Shimkus, 
for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. Perciasepe, I am going to try to get through four 
questions pretty quick, and I kind of gave the intro in the 
opening statement. So I am going to first go through the 
Drinking Water State Revolving Fund. What are your 
capitalization goals for the Drinking Water State Revolving 
Fund, and are we getting any closer to a sustainable State 
Revolving Fund Program?
    Mr. Perciasepe. When I look at--I think we are always 
getting closer, as long as we can continue to put 
capitalization grants in the budget. We are staying ahead of 
inflation and we are building those funds through the whole 
country. Last year, the combined revolving funds produced $7.7 
billion of infrastructure investment because it is made up of a 
capitalization grant that you all approved, the State match to 
that grant, the repayments that are now are coming in between 
$3 and $4 billion a year, and the leveraging that States are 
doing with their funds blending in municipal or revenue bonds 
into it. So when you mix all of that together, the investment 
we are making here is leveraged because these banks are getting 
bigger and bigger. I think that this is a long-term issue we 
all have to discuss and wrestle with on how big you want those 
banks to be before we feel like the federal component is there. 
We think we need to stay ahead of inflation and we still think 
we need to be putting some capitalization into those banks. 
There is a huge need.
    Mr. Shimkus. Yes, there is huge need, a lot of interest, a 
good program. So that is why I wanted to put my focus there.
    I want to also talk about the IRIS program, and the 
National Academy of Sciences, and really just a caution. We 
will have these fights here on the dais and in the room on 
science, what is the real science. I think it would be helpful 
for the EPA to make sure that the substantive changes are in 
line with the National Academy of Sciences and that you hold as 
close as you can to that because then that takes really a 
pretty arguable point off the table for anyone if we are using 
a clear, science-based proposal. Does that make sense?
    Mr. Perciasepe. Yes, absolutely, and there are two things 
going on that I just want to make sure you have on your table 
when you are thinking about this. The first is, we have asked 
the National Academy to sort of look at the progress we are 
making and so they are in that process again, so we keep linked 
up with them. Second, we are shortly going to come out with 
another set of improvements to the program that we have been 
working on, again, keeping in line with the original National 
Academy. So we are saying link with the National Academy to 
have them keep looking at it as we are making these 
improvements, and we have another batch coming up. So we are 
very keen on exactly what you are saying.
    Mr. Shimkus. On the e-Manifest, would $2 million be enough 
for you to get started in fiscal year 2014?
    Mr. Perciasepe. I think we need a little more than $2 
million. I know that is what the authorized amount was. There 
is a little hop, skip and a jump here with whatever you want to 
call 2013. We need to put a little extra money in there, and I 
don't know the exact amount but I think we have $4 million. I 
can get you the precise number, but we have a little bit more 
in the budget.
    Mr. Shimkus. Great. That is why we ask these questions, and 
we look forward to working with you and we will evaluate that.
    Mr. Perciasepe. Four point four is in the budget.
    Mr. Shimkus. The last part of my line of questioning really 
deals with kind of local interest. This past April, press 
reports indicated, and you all confirmed, that had released 
personally identifying information for thousands of farmers and 
ranchers. What recourse do the folks have whose information was 
leaked?
    Mr. Perciasepe. We have no evidence that any of the 
information was leaked. I think we have been able to----
    Mr. Shimkus. But you confirmed that the information was----
    Mr. Perciasepe. We got that information from the States. I 
think it was released without the appropriate review that it 
needed to have, and we have now done that review several times 
over, and I am pretty confident that where we are now it is in 
good shape. However, we have been working with the people who 
received it both in the ag community and in the NGO community 
to not release and change back the information.
    Mr. Shimkus. Let me ask a final question. Were any of the 
FOIA processing fees waived by EPA for this request for 
information, and if so, on what grounds? And if you don't have 
that available, if you could let me know, I would appreciate 
it.
    Mr. Perciasepe. I can get you the precise information.
    Mr. Shimkus. Thank you. I yield back, Mr. Chairman.
    Mr. Whitfield. The gentleman's time is expired. At this 
time I recognize Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair, and Administrator 
Perciasepe, again, thank for your leadership.
    EPA is required to conduct a drinking water infrastructure 
survey every 4 years and to produce a report to Congress 
summarizing the survey results. That last report was delivered, 
as you know, in 2009. Is the Agency on track to complete its 
report sometime this year?
    Mr. Perciasepe. I believe we are. I know that it is in the 
final stages of review. I am saying I don't see a reason that 
it won't get done this year.
    Mr. Tonko. Thank you. And the 2009 report indicated a need 
for investment of over $300 billion over the next two decades, 
an average of about $16 billion per year. That is to maintain 
safe drinking water for our citizens. I am concerned that with 
budget cuts and the sequester that we are falling even farther 
behind in maintaining these vital systems, and when you 
consider situations like those we in New York have experienced 
with Hurricanes Irene, Lee and Sandy, the need to harden these 
systems or redesign them creates yet another bit of additional 
challenge. How have the revolving loan funds that provide 
support for this work fared under the current sequestration? 
Are we going to be able to meet the needs of hurricane-impacted 
areas?
    Mr. Perciasepe. Well, in terms of the hurricane-impacted 
areas, we had a separate appropriations for Superstorm Sandy, 
which was around $600 million. It did get trimmed by the 
sequestration, but I want to say that the appropriations to 
deal with that storm and its aftermath are not only in EPA, 
they are also in the Army Corps of Engineers, FEMA and in HUD, 
and what we are working on very hard with the States, and we 
have very good connection with the States and very good 
interagency federal level, is how those funds can work 
together. So the FEMA funds can look simplistically, we build 
things to the way we are. The HUD funds could be used to extend 
beyond the sewage treatment plant itself and look at some of 
the infrastructure coming in, and as they are looking at 
neighborhood and community rehabilitation, and we can look to 
the EPA funds, which are small comparatively to the other ones, 
as to how you would make resiliency improvements at the 
facilities themselves, you know, elevating pumps or flood-
proofing electronic boxes and improving the emergency backup 
power systems. So I think we are in good shape for the 
hurricane-damaged areas.
    In terms of the overall needs of the safe drinking water 
program for the United States, you know, that mix of federal 
funds and local funds is something that is a constant back and 
forth, because if you look at just the federal funds, it looks 
like it will be a long time before we would meet those needs. 
So we really have to look at what the local bonding authorities 
are and funding as well as the federal together. There is still 
not enough to do these things in the 20-year time frames that 
are looked at in these surveys. However, we are also looking at 
how we can reduce costs, find more cost-effective ways to do it 
like green infrastructure. I am sorry. That is a long answer to 
your question.
    Mr. Tonko. No, I appreciate that, but the $16 billion per 
year you believe is something that we are falling short of in 
terms of any of the creative financing that we could come up 
with?
    Mr. Perciasepe. Well, certainly the federal government 
isn't covering $15 billion a year, but the other sources that 
are out there including things like the Rural Utility Service 
in the Department of Agriculture and Army Corps of Engineers 
and others as well as the local funding, you don't have the 
number, whether it is at that level across the country.
    Mr. Tonko. And in terms of facing significant costs, is 
that not the case if drinking water systems are deficient? 
There is an impact here that we can't escape.
    Mr. Perciasepe. If they are not up to date?
    Mr. Tonko. If they are not up to date, if there is delayed 
response.
    Mr. Perciasepe. Well, the longer you delay maintenance and 
capital upgrades, which is obviously part of the needs, the 
ongoing capital upgrades, it can cost more in the future. You 
know, if you don't keep the pipes and the pumping stations and 
everything up to date or replaced in a proper time, you know, 
it is just like bridges and any other infrastructure, 
eventually it costs more to fix them in the future. So it is 
important that we continue focusing on this at the national 
level to make sure that we have funds to do that.
    Mr. Tonko. And obviously the States would have to make up 
this difference, which is a huge.
    Mr. Perciasepe. Well, States and/or local governments are 
often the ones that are funding these water infrastructure 
projects.
    Mr. Tonko. Has anyone quantified jobs as they relate to 
these sort of projects?
    Mr. Perciasepe. Yes, we look at the jobs, and in fact, when 
we did the Recovery Act, there was a $6 billion influx into 
these funds, and I don't have them here with me but we have the 
calculations of the jobs created by that, which is a good 
indicator of the jobs that are created. But in the last 4 
years, we have put a little over $20 billion into these 
revolving funds, which has been a boost to getting ahead a 
little bit.
    Mr. Tonko. Thank you very much, and Mr. Chair, I yield 
back.
    Mr. Whitfield. At this time I recognize the gentleman from 
Texas, Mr. Barton, for 5 minutes.
    Mr. Barton. I was on the phone a little bit earlier. My 
hometown was hit by a tornado last night, and my staff was 
downtown and giving me a report on the damage. We had millions 
of dollars of damage. The tornado hit approximately a mile from 
my home and my Congressional office, but at least in Ennis, 
Texas, nobody was injured. We did have at least six deaths in 
the area. So that is why I was on the phone getting that 
report.
    We appreciate you being here, sir, as the Acting 
Administrator. We have a new tradition that we allow people out 
in the country to Twitter in questions for members to ask, and 
we have gone through some of them, and we have a question from 
a constituent of mine actually, Crodagnonman, C-r-o-d-a-g-n-o-
n-m-a-n, Crodagnonman, if I am saying that right. He is 
referring to a Competitive Enterprise Institute story that some 
research has been done comparing the request to have Freedom of 
Information Act fees waived. They did a review of some of the 
requests and found that left-of-center groups seemed to have a 
very good chance to have their fee request approved while 
right-of-center groups had almost no chance. They looked at 
some information for the last year and said that in January 
2012 to this spring, the National Resource Defense Council, 
Sierra Club, Public Employees for Environmental Responsibility, 
Earth Justice had their fees waived in 75 out of 82 cases. 
Meanwhile, the Competitive Enterprise Institute was rejected 14 
out of 15 times. The Sierra Club had 11 out of their 15 
requests approved. The NRDC had 19 out of 20 approved. Earth 
Justice was perfect, got all 19 requests approved. Employees 
for Environmental Responsibility went a perfect 17 for 17. 
Water Keeper Alliance had all three of its requests granted. 
Greenpeace and the Southern Environmental Law Center were two 
for two, and Center for Biological Diversity were four for 
four. We have just seen the scandal that has erupted over the 
IRS targeting the conservative groups for audits and things 
like that. What is your response to something that seems to be 
of a similar nature happening at EPA? As the Acting 
Administrator, will you investigate this, and if it needs to be 
corrected, promise to correct it?
    Mr. Perciasepe. Thank you for that question, and yes, this 
came to my attention yesterday, I think, as it did to a number 
of folks. I had an opportunity to talk to the chairman very, 
very briefly yesterday about it, and I have not read yet 
personally the report that you are bringing up but I want to 
assure the committee that it is not EPA's policy in any way, 
shape or form to treat people differently when they request to 
be waived for fees, and we have six criteria that I looked at 
last night that the staff uses to make those determinations. I 
have also discovered since the last time we talked, Mr. 
Chairman, that we do about 500 of these a year. So what I have 
asked this morning is that our Inspector General help me do a 
programmatic audit of this. I don't know if these criteria are 
causing any problem or whether or not this kind of decision-
making that is pointed out in this report is actually what is 
happening, so I need to get an unbiased opinion on this.
    I should point out that even if the fees are not waived, it 
is frequent that fees are charged anyway because a certain 
amount of the work we do is free regardless, and with our new 
FOIA online system, there is no duplication fees because some 
of the fees used to be in copying all the materials and now it 
is all electronic. So even if somebody's request is denied for 
whatever reason, the chance of them having to pay any fees are 
much lower today than it used to be. That said, I am going to 
look forward to doing an audit of this.
    Mr. Barton. Well, we can have disagreements on policy and 
we have disagreements over the implications, but to the people 
out in the public, if it is government information and you are 
going to give it free to one side, you ought to be able to also 
provide it free to the other and then let the policymakers and 
the public make the decision, and it certainly appears that 
there is a bias when if you are the Sierra Club it is almost a 
guarantee your fees will be waived, and if you are the 
Competitive Enterprise Institute, it is almost a guarantee your 
fees are not going to be waived.
    Mr. Perciasepe. Well, as I said, I am going to get an 
independent look at all of that information so that I can make 
a determination, so I appreciate you bringing it up. I have 
been looking at this over the last 24 hours.
    Mr. Barton. Thank you, Mr. Chairman.
    Mr. Whitfield. The gentleman's time is expired. At this 
time I will recognize the gentleman from California, Mr. 
Waxman, for 5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman. This hearing is 
supposed to focus on the President's fiscal year 2014 budget 
request for the EPA. However, first we need to understand the 
immediate impact of sequestration, what it will have on the 
Agency's ability to protect public health this year.
    Earlier this year, EPA provided an assessment of the 
sequester's potential impacts across the Agency. I would like 
to explore how this is actually playing out, Mr. Perciasepe.
    One expected effect was to slash funding for States to 
monitor local air quality and provide the public with essential 
air quality data. Administrator Perciasepe, are these 
reductions still expected to occur, and what will that mean for 
States and communities?
    Mr. Perciasepe. All the, we call it the State-Tribal 
Assistance Grants budget program in the Agency, all of those 
were cut by 5 percent. There was no discretion on our part on 
that, so the purposes of those grants and the activities that 
they were going to conduct have that level of reduction 
including air quality monitoring programs.
    Mr. Waxman. Will it make a difference? Should we be 
concerned about it? What will be the impact?
    Mr. Perciasepe. Well, on the air quality specifically or on 
the grants in general?
    Mr. Waxman. Well----
    Mr. Perciasepe. Even the Sandy supplemental we were just 
talking about was reduced by 5 percent. The drinking water 
revolving fund will probably result in 40 fewer projects 
started during the year. The purchasing of air quality monitors 
under that section of the Clean Air Act will just be stretched 
out longer.
    Mr. Waxman. So money for the States to monitor local air 
quality efforts will be reduced. They just won't know what is 
going on to the full extent that they are now able to, with the 
funds that are going to be cut. Will the Agency still have to 
significantly reduce inspections and other compliance and 
enforcement activities?
    Mr. Perciasepe. We have a combination of issues there 
because our travel budgets are cut but also we have to furlough 
employees. So when we furlough employees, obviously that 
translates into fewer hours available to do the inspections. 
Our estimate is probably around 1,000 fewer inspections, and we 
haven't translated it down to the fewer inspections the States 
will do if their grants will be reduced.
    Mr. Waxman. Well, if there is not going to be a credible 
possibility of inspections and enforcement, compliance, I 
think, would break down. The companies that comply with the law 
are disadvantaged, creating more incentives to cheat. Is that a 
fair conclusion?
    Mr. Perciasepe. I think it is fair to say that some 
compliance will go undetected.
    Mr. Waxman. Another EPA initiative at risk are two of the 
joint EPA/NIH Centers of Excellence for Children's Health 
Research, which researched the role of environmental factors in 
some of the most pervasive and devastating childhood diseases 
including asthma, autism, childhood leukemia and diabetes. Will 
EPA be forced to stop funding two centers conducting research 
on these childhood diseases?
    Mr. Perciasepe. I don't know the answer to that. I am 
sorry.
    Mr. Waxman. Well, I would like you to get it for me because 
that is my understanding that it would happen. I am also 
concerned about the assistance EPA gives local communities for 
conducting cleanups and upgrading infrastructure. EPA projected 
no new Superfund cleanups, slowdowns in ongoing Superfund 
cleanups, fewer water quality protection and restoration 
projects, and hundreds of underground storage cleanup projects 
that will no longer happen. Administrator Perciasepe, will 
States still face these substantial cutbacks?
    Mr. Perciasepe. We will have fewer brownfields projects, 
probably about 10 under a cooperative agreement that we have, 
five fewer cleanups. There will be 12 fewer Superfund removals. 
These just permeate through the whole thing.
    Mr. Waxman. These cuts are irrational. They will going to 
hinder efforts to protect Americans from radiation after a 
terrorist attack or disaster. They are going to undermine our 
ability to protect our waters from oil spills. They will weaken 
efforts to protect our infrastructure against national 
disasters and nuclear accidents. These cuts are bad for public 
health and for the economic health of our communities and 
industries. They stop good investments for our communities that 
are labor-intensive, which means good jobs for construction 
workers and engineers. Some of the projected effects would hurt 
American businesses as well.
    But the key point that I think what we must recognize is 
that next year's proposed budget cuts under sequestration would 
be another $325 million from EPA's current funding levels under 
the sequester. And of course, the Ryan budget would go further. 
In 2014, they would cut EPA funding by an estimated 14 percent 
from 2012 levels. This is unacceptable. EPA has critical 
responsibilities: protecting clean air, clean water, slowing 
devastating climate change. Even if you want to protect your 
coal industry, it is not reason enough to cripple EPA.
    Mr. Whitfield. The gentleman's time is expired. At this 
time I recognize the gentleman from Louisiana, Mr. Scalise, for 
5 minutes.
    Mr. Scalise. I want to thank the chairman for hosting this 
hearing, and I thank Acting Administrator Perciasepe. I 
appreciate you coming here and answering my questions. I have 
got a number.
    I want to start with a question about ozone standards. In 
2010, the EPA had proposed a change to the existing ozone 
standard that had just been put in place in 2008, hadn't yet 
even been implemented. Ultimately, I think the standards were 
estimated to cost between $19 billion and $90 billion annually 
to our economy, and I think they were pulled back, but I know 
in my district, that would bring levels in many of the parishes 
I represent into nonattainment, which would add tremendous cost 
and burden onto a lot of families and businesses out there.
    I want to ask you, first of all, when you come out with 
your proposals next year, do you intend to repropose the 
current standard or are you looking at doing something similar 
to what you all had floated out in 2010?
    Mr. Perciasepe. Well, as you pointed out, we are in the 
process of implementing the current standard that was enacted 
in 2008. What is going on right now and is not completed yet is 
the science process that goes on in front of any proposed new 
standard, and I believe the schedule has that happening 
sometime early next year, I think as you have pointed out, or 
very close to the end of this year. But right now the Clean Air 
Science Advisory Council is in the process of reviewing science 
documents on that. So there is no particular proposal in front 
of the Administrator at this point.
    Mr. Scalise. Will you all be taking public comment on 
maintaining the current 2008 standard?
    Mr. Perciasepe. Yes. Once that science process is over, 
they will probably identify a range and those will go out for 
public comment.
    Mr. Scalise. All right. I want to go back to that 
Competitive Enterprise Institute report that Congressman Barton 
was just talking about. This is the report. I have gotten a 
copy of the report to your staff. It came out earlier this 
week. It details some of the FOIA request information that you 
alluded to that clearly your office is aware of it because it 
involves lawsuits that have been going on for years but 
ultimately what they have done is compiled a list. They took 
many left-leaning, what many people would consider left-leaning 
groups, and they took what man would consider right-leaning 
groups that issue FOIA requests upon the EPA and have the 
ability to get those fees waived, and they found, and it is 
categorized in this report, that 92 percent of the time, this 
goes back to January of 2012 through now, 92 percent of the 
time the EPA waived those fees for left-leaning groups and 93 
percent of the time you denied those same fee waivers to 
conservative-leaning groups. And so when we take this in the 
context of what just happened and what has just been exposed at 
the IRS where yesterday USA Today's headline was ``Liberals get 
a pass,'' it seems like at the EPA the same thing is happening 
where liberals get a pass. And, you know, if it was just an 
isolated incident and maybe you can go back and look at a 
couple of things, that might be one thing. But when you start 
seeing a culture of anti-conservative attitude by the Obama 
Administration, it raises very troubling questions. When you 
see some of these numbers and you look at not only the 
Competitive Enterprise Institute but also the American 
Tradition Institute were rejected more than 93 percent of the 
time, and then you go look at the Natural Resources Defense 
Council, the Sierra Club, the Public Employees for 
Environmental Responsibility, they were a perfect 17 for 17 at 
getting their fees waived by you all. And so after a pattern of 
this, it is not just a coincidence. And so what I want to know 
is, who makes the decisions at EPA to waive these fees?
    Mr. Perciasepe. Those decisions are made in our FOIA 
office, which is a career program office in the Agency, and 
they have criteria that they use to make these decisions, and 
what I mentioned to Mr. Barton, and I will repeat again, it is 
not our policy to not apply these things----
    Mr. Scalise. I understand. Does the Assistant 
Administrator, Ms. McCarthy, have any involvement in these fee 
waivers?
    Mr. Perciasepe. No.
    Mr. Scalise. Let me ask you this, because one other thing 
that they raised, and this is something that came from the 
American Tradition Institute, I think there is a separate 
lawsuit going on that involves instant messaging, and they are 
trying to get instant messaging in FOIAs, and it seems like 
only emails were turned over but not IMs, and I think you even 
issued a memo recently reminding your employees that it seems 
like maybe at EPA they have been using IMs to try to avoid 
using emails to try to hide that information from FOIAs. Number 
one, what are you doing about making sure that instant messages 
are also included in FOIA requests but also do you know of any 
history of destroying IMs, those instant messages, over at the 
EPA, and whether they are destroyed accidentally or in 
violation of disclosure laws?
    Mr. Perciasepe. I can say that we just changed our computer 
system for email that has a better instant messaging 
preservation system in it. To my knowledge, instant messaging 
is not widely used at EPA, but we are putting in place, as I 
suggested in my memos to the staff and to others, that we are 
putting in place a backup preservation system so that they----
    Mr. Scalise. Do you know if any have been destroyed?
    Mr. Perciasepe. Not that I know of.
    Mr. Scalise. Thanks. I yield back the balance of my time. 
Thank you, Mr. Chairman.
    Mr. Whitfield. The gentleman's time is expired. At this 
time I recognize the gentleman from Michigan, Mr. Dingell, for 
5 minutes.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy. I 
ask unanimous consent to provide my remarks in the record and 
to include certain correspondence between me and EPA, which 
will be occurring shortly.
    Mr. Perciasepe, many of us in the Great Lakes have sent a 
letter to the Appropriations Committee requesting $300 million 
for the Great Lakes Restoration Initiative. The Administration 
has requested that level of funding as well. I have concerns 
that EPA is not doing enough to address the water quality in 
the Great Lakes. As you know, we had a massive algae growth in 
Lake Erie, which was referred not long back as America's Dead 
Sea, and I have worked long and hard to clean this up but I 
note that in the response your office has given, you have 
referenced your resources to combat massive algae blooms such 
as the one on Lake Erie. I would like to hear, do you have 
enough resources to deal with that algae bloom and do you 
propose to do anything about it this year so that we don't have 
another repetition?
    Mr. Perciasepe. I think it is a----
    Mr. Dingell. Yes or no.
    Mr. Perciasepe. Yes, I have the funding for the EPA part of 
this.
    Mr. Dingell. I will ask you to submit for the record what 
you propose to do about that and whether you have adequate 
funds.
    Now, I would appreciate it if you would submit for the 
record additional information on efforts EPA is taking to 
address this issue, and so if you could submit that for the 
record, it would be appreciated.
    Mr. Perciasepe. Yes, sir.
    Mr. Dingell. I have the distinct feeling you do not have 
the resources to do the job.
    Now, next question. I see that the President's fiscal year 
2014 budget request for CERCLA or Superfund is $33 million less 
than for fiscal year 2012. Yes or no, can CERCLA continue to 
fulfill its duties and its current cleanup responsibilities and 
obligations without slowing down significantly because of this 
reduction in funding? Yes or no.
    Mr. Perciasepe. Yes, for existing Superfund sites. Future 
ones, we are going to have to delay.
    Mr. Dingell. In other words, you do not have enough money 
to do the cleanup at the same rate or the necessary rate 
because of that cut. Is that right, or no?
    Mr. Perciasepe. Yes.
    Mr. Dingell. Would you submit some additional information 
on that issue, please, so that we may evaluate that more 
adequately?
    Now, this is an important issue, given the fact that 
tomorrow we are going to be having a hearing on amending 
CERCLA. I am concerned again about something different about 
which you have no say, and that is, the majority appears not to 
be allowing the minority to request certain witnesses. Given 
the complexity of the issues the draft legislation seeks to 
address, I hope the majority would hold fair and open hearings 
so that we can have a proper input and all the information that 
is needed.
    Now, I would like to have you answer this question.
    Mr. Shimkus. Would the gentleman yield on that point?
    Mr. Dingell. I will be happy to yield.
    Mr. Shimkus. The fact of the matter is, we were asked by 
the ranking member on the floor--the hearing tomorrow has three 
Republican witnesses and two Democrat witnesses. Then we were 
asked for government witnesses, which you said we would have at 
an additional time. So I don't know what this frustration is 
but it is very disappointing because it is not the intent. In 
both government agencies, we are not going to testify on the 
pending legislation.
    Mr. Dingell. My question is, are we going to have enough 
time and enough witnesses to get the answers? These hearings 
are supposed to afford the minority adequate opportunity to be 
heard----
    Mr. Shimkus. If the gentleman would yield?
    Mr. Dingell [continuing]. That is the case.
    Mr. Shimkus. If the gentleman would yield, the answer is 
absolutely.
    Mr. Dingell. All right.
    Mr. Shimkus. But I don't know what you all are crying 
about. That is my frustration.
    Mr. Dingell. Well, I only have 44 seconds left.
    What is EPA doing to enforce the cost of cleanups and 
emergency cleanups? Please submit that for the record. And I 
want you to tell me what is EPA doing to hold the property 
owners responsible for the costs related to cleanups? We have 
one situation in my district where the mayors are continuously 
complaining about the fact that a property owner is doing 
nothing and that he is paying fines or is supposed to pay fines 
of about $37,000 per day for his refusal to carry forward. This 
individual has a long history of having failed to have done 
what it is he is supposed to do to comply with a wide array of 
laws. I will be sending you a letter, which I ask unanimous 
consent for to be inserted in the record together with the 
response about this particular individual and about what you 
are doing there, and I am hoping that you will give me an 
adequate and prompt response.
    Mr. Whitfield. Without objection, and the gentleman's time 
is expired..
    Mr. Dingell. And I thank you. Just one more question, 
quick. Is EPA doing enough to adequately carry forward existing 
steps to the highest level of performance or are you having to 
cut back because of lack of personnel and money?
    Mr. Perciasepe. For emergency cleanups, if I am correct in 
your question, we make sure that we have the adequate resources 
to deal with emergency responses.
    Mr. Dingell. Due to the fact that I am 53 seconds over, I 
am going to request that you submit that for the record.
    Mr. Chairman, I thank you and my colleague for your 
courtesy. We do want to work with the majority. We want to see 
that we get the time, we want to see that we get the witnesses, 
and we want to see that we have a record that gives us the 
ability to look at things properly.
    Mr. Whitfield. Mr. Perciasepe, did you understand the 
documents that he asked you to provide?
    Mr. Perciasepe. Yes, I do, and we will follow up.
    Mr. Whitfield. Thank you.
    Mr. Dingell. Mr. Chairman, I would like you and my other 
colleague to know that these questions are asked with great 
respect and great affection.
    Mr. Whitfield. Mr. Tonko.
    Mr. Tonko. Mr. Chairman, since this subject came up, and 
Chairman Shimkus raised the question, I believe for the record 
what we would like is a full discussion of the Superfund before 
the markup of the bills. So if we have other witnesses coming 
in which he has been kind enough to grant, we believe it would 
be helpful to do the sequence and that the Committee has this 
additional hearing to which it is committed.
    Mr. Shimkus. But if the gentleman would yield, we just 
marked up the track-and-trace on the FDA, and we didn't have a 
whole FDA authorization hearing. It is kind of an irresponsible 
request. This is a legislative hearing. We can have a hearing 
on the Superfund on its own. But to say you have to have a full 
hearing on a full agency before you move on a hearing on 
legislation, it is problematic.
    Mr. Tonko. In those other areas, though, Chairman, I would 
suggest that you have had hearings. There has not been a 
Superfund hearing in some 10 years with many committee members 
being new to this committee since that time, and I think it 
would be very helpful to have that sort of understanding of how 
Superfund is working or not working before we amend it, and to 
do that before the markup of the bill.
    Mr. Whitfield. Well, listen, I am sure you and Mr. Shimkus 
can work this out for your subcommittee. At this time I am 
recognizing the gentleman from Georgia, Dr. Gingrey, for 5 
minutes.
    Mr. Gingrey. Mr. Chairman, thank you for the recognition.
    Mr. Perciasepe, I am going to ask you to get very close to 
the microphone, if you will. I am suffering from swimmer's ear 
this morning and I can hardly hear my own self talk. I don't 
know whether I am yelling or speaking softly. So bear with me. 
I would like to thank the Acting Administrator for testifying 
at today's joint hearing on the fiscal year 2014 budget. I will 
get right to my questions.
    Mr. Perciasepe, in your capacity as Acting Administrator or 
as Deputy Administrator, have you ever solicited money from the 
stakeholders which your agency supervised? Yes or no.
    Mr. Perciasepe. No.
    Mr. Gingrey. Have you ever suggested, requested or 
otherwise asked stakeholders your agency supervised to donate 
money or otherwise assist in implementing a law for which your 
agency is responsible? Yes or no.
    Mr. Perciasepe. No.
    Mr. Gingrey. Have you ever suggested, requested or 
otherwise asked stakeholders your agency supervised to donate 
money to or otherwise assist outside groups that share your 
goals for implementing your agency's laws? Yes or no.
    Mr. Perciasepe. No.
    Mr. Gingrey. Well, I appreciate those responses and I am 
glad to hear that because as you may be aware no doubt, this 
past Friday the Washington Post reported that HHS Secretary, 
Health and Human Services, Kathleen Sebelius, has for the last 
3 months been making phone calls to health industry executives 
asking that they contribute to nonprofit groups working to 
implement various aspects of the Affordable Care Act, otherwise 
known as Obamacare. In fact, the New York Times then reported 
on Sunday that Secretary Sebelius suggested that they support 
the work of Enroll America, a nonprofit organization that 
indeed is advocating for Obamacare.
    Mr. Chairman, I am pleased by the Acting Administrator's 
answer that the EPA has not acted in this manner. However, in 
light of the indiscretions, and my colleague from Louisiana, 
Mr. Scalise, touched on this, he stole my thunder but not my 
lightning, these indiscretions admitted this week across 
multiple agencies----
    Mr. Rush. Mr. Chairman.
    Mr. Gingrey [continuing]. Re the Department of Justice or 
the Department of Treasury.
    Mr. Rush. Will the gentleman yield?
    Mr. Gingrey. I am extremely concerned----
    Mr. Rush. Will the gentleman yield?
    Mr. Gingrey. No, I will not. If I have time at the end, I 
will be glad to yield but I will not yield now. I am extremely 
concerned with conduct of this Executive Branch. It is 
abundantly clear that each agency has significant power over 
the very industries that they regulate. I expect these 
Subcommittees of Energy and Commerce, this one, will continue 
to utilize their oversight of this Administration to monitor 
agencies and ensure that the private sector has the ability to 
create jobs and bolster our economy without the threat of 
retribution, and that is what we are facing right now, and I 
will yield to any of my colleagues on this side at this point 
the rest of my time, or else I will yield back my time.
    Mr. Rush. Mr. Chairman.
    Mr. Gingrey. Or I will yield 30 seconds to the gentleman 
from Chicago. I am sure he knows a lot about this.
    Mr. Rush. Mr. Chairman, I am sure my friend has outrage 
about a whole lot of matters but we can all have sense of 
outrage about a lot of matters, but why waste the time of this 
subcommittee on such far-reaching and inappropriate feigned 
outrage because you want to attack the Obama Administration? 
This has been an orderly hearing. It has been a hearing 
conducted with some decency, and out of the blue come these 
outrageous, ill-timed and ill-conceived remarks. Mr. Chairman, 
let us keep our committee--the Energy and Power Subcommittee, 
has a record, has a way of keeping proper demeanor between 
individuals.
    Mr. Gingrey. Reclaiming my time. Mr. Chairman, reclaiming 
my time, I now yield back. Thank you, Mr. Chairman.
    Mr. Rush. I think he owes us an apology.
    Mr. Whitfield. Mr. Rush, let me just say----
    Mr. Rush. He is wasting our time.
    Mr. Whitfield. I would just say that the gentleman from 
Georgia actually complimented the EPA for not involving 
themselves in those kinds of activities.
    Mr. Rush. Mr. Chairman, we have been abused in this hearing 
by the gentleman from Georgia--abused.
    Mr. Whitfield. At this time I would recognize the 
gentlelady from California, Ms. Capps, for 5 minutes.
    Mrs. Capps. I thank the chairman for recognizing me, and I 
thank you, Mr. Perciasepe, for your testimony.
    I appreciate EPA's acknowledgement of the strong link 
between our energy sources and usage, climate change and clean 
air and water. As a representative of a coastal district, I am 
particularly mindful of these impacts on our oceans. As you 
well know, we rely upon healthy oceans for countless economic 
activities like fishing, tourism and recreation. One of the 
most troubling impacts of climate change is ocean 
acidification, which threatens countless organisms, ecosystems 
and livelihoods. Ocean acidification is caused by the increased 
uptake of carbon dioxide from the air and nutrient runoff from 
land. Managing coastal runoff is clearly within EPA's 
jurisdiction so I would hope that EPA has a plan for managing 
this contributor to ocean acidification.
    My specific question, Mr. Perciasepe, is, is EPA doing 
anything to monitor nutrient runoff? If so, what are you doing 
to reduce this runoff and its impacts on the ocean?
    Mr. Perciasepe. Thank you for the question. I mentioned in 
my opening comments, and I want to emphasize this more with 
your question, that nutrient pollution, whether it be Lake Erie 
or in the Great Lakes or Lake Tahoe or the ocean near coastal 
waters is a major issue in the United States. We have asked in 
this budget for some additional funds to help States put 
together more concrete plans on some of those impaired waters, 
and we have been working with the States to identify all the 
places in the country where there is impairment.
    I want to add one thing very quickly. We have also been 
working very hard with our partners in the Department of 
Agriculture because they also have concerns about this because 
obviously they want to maintain nutrients on the land so that 
they can help grow the crops. So we have a good working 
relationship there and we are hoping to provide some more 
funding to States here through this budget.
    Mrs. Capps. And I appreciate that, and we will look forward 
to working with you to make sure this happens.
    Another topic: One of the deeper program cuts in the EPA is 
to the National Estuary Program, which was reduced by nearly 15 
percent, and this is compared to the 5.2 percent reduction to 
the Agency as a whole. Our national estuaries, and you know 
that I have one in my district, are such an important resource 
for coastal communities through ecosystem preservation and also 
providing local jobs. Despite these programs' ability to 
leverage minimal EPA funding--and they partner with such a 
variety of private sources and nonprofit sources, so they are 
really are good at leveraging--these estuary programs are 
relatively small and they can't weather cuts as well as some of 
the larger programs. For example, Morro Bay National Estuary 
Program in my district raises about $2.50 for every dollar it 
receives from EPA. This program helps our cities, the county, 
State agencies, local nonprofits and landowners further the 
conservation goals in our local communities. But this proposed 
cut is going to force Morro Bay to eliminate a position in that 
estuary to pull back on promised services to our community.
    So Mr. Perciasepe, I understand EPA's very tough budget 
challenges, but what is the rationale for making such a 
substantial cut to the National Estuary Program and how does 
this align with EPA's overall mission? I know it is a tough 
question. You didn't ask for this budget, but we are trying to 
understand it.
    Mr. Perciasepe. You know, the National Estuary Program is 
something I personally worked on for many, many years. Being 
from Baltimore for the middle part of my life, obviously the 
Chesapeake Bay is a pretty important amount. Now, what you are 
talking about is the difficult choices we had to make in 
implementing the sequestration in 2013. I want you to know that 
the budget before you for 2014 restores the funding for the 
estuary program at the basic level that we think it needs to 
have, and I hope again that the committee will in its advice 
and coordination with the Appropriations Committee support 
that.
    Mrs. Capps. Thank you. I look forward to getting that 
information.
    I did have one other question which won't fit into the last 
18 seconds because it is such a big topic. Our country's water 
infrastructure is in such need of repair and upgrades, so I 
would like to, Mr. Chairman, submit this question to Mr. 
Perciasepe in written form and ask that both the committee and 
myself personally receive a written answer in response because 
I think we are at a crisis level in many of our water districts 
in the country. I know we certainly are in the central coast of 
California. And so again, thank you for continuing this back 
and forth.
    Mr. Whitfield. Well, they will certainly be submitted. As 
you know, when the hearing is over, we will be gathering 
material for additional questions and getting it to the 
Administrator. At this time I recognize the gentleman from 
Texas, Mr. Hall, for 5 minutes.
    Mr. Hall. Thank you, Mr. Chairman. I would first thank the 
witness for your statement: ``If you invite me, I will come.'' 
And you stand by that, do you? You are not going to change your 
mind on that?
    Mr. Perciasepe. No. I mean, that is to play baseball. 
Chairman Shimkus said I didn't show up for practice last night, 
and I said if you invite me, I will come to the next practice.
    Mr. Hall. Your folks, Gina McCarthy and Lisa Jackson, 
fouled out on all the letters I have written to them requesting 
them to come here, and Mrs. Jackson refused to come here until 
we threaten subpoena. Finally, she agreed to a time under her 
conditions, she thought. I sure hate to see you follow 
something like that. You are so important to us.
    Mr. Dingell helped write a bill for clean air and clean 
water back, I don't know, some time in the 1980s, early 1990s. 
Were you with the EPA at that time?
    Mr. Perciasepe. I was not at the EPA in 1990. I was working 
for Governor Schaefer in Maryland in 1990.
    Mr. Hall. Well, we at that time set some provisions for EPA 
to have some control over--I am from Texas and I know the oil 
and gas business and I know they need some control and need 
some supervision, some oversight. We set them up to give them 
that oversight and also, though, we expected them to give them 
some support, and that has been their practice up until this 
Administration came into being. And one time with Gina 
McCarthy, I asked her, did you consider the impact your 
resolutions have on our jobs, and her answer, and it is in the 
record here, and they are being made aware of that over there 
as she seeks to be confirmed, that her answer was ``I am not in 
the business of creating jobs.'' And I told her I thought that 
was one of the meanest answers I had ever had here with the 
problem people are having not having jobs and having to tell 
their families they can't provide, and I left her a place to 
apologize. She has never done that. So I am going to really 
expect you to come when we invite you because we want you to.
    As you know, EPA recently designated Wise County, Texas, a 
county with significant gas production and transmission as an 
Ozone Nonattainment Area. You are aware of that, aren't you? 
Just yes or no, if you know?
    Mr. Perciasepe. Yes.
    Mr. Hall. And this action was initiated by your former 
colleague, Mr. Al Armendariz. You remember that name, don't 
you?
    Mr. Perciasepe. Yes, he was a former regional 
administrator.
    Mr. Hall. And he likened EPA's regulatory enforcement 
philosophy toward the oil and gas industry to Roman 
crucifixion. Do you remember that statement by him? Just yes or 
no. You may not. If you don't, tell me no.
    Mr. Perciasepe. Yes, I remember its reporting.
    Mr. Hall. Well, I am going to do better than report it. His 
predictions came true in this designation given his 
recommendation was totally inconsistent with methods applied by 
other EPA regions and was not based on any sound science. So I 
guess my first question is, why did EPA headquarters rubber-
stamp his recommendation, which was inconsistent with other EPA 
regions and not based on a sound scientific record?
    Mr. Perciasepe. This is on Wise County?
    Mr. Hall. Yes.
    Mr. Perciasepe. Well, the factors that EPA looks into when 
it tries to define the area that is contributing to the 
nonattainment is the sources of pollution in those areas, the 
connectivity in the metropolitan area in terms of people 
commuting or jobs that may be in the different locations and 
how people move around and what the emission sources are, and 
so I think that that decision was based on those kinds of data.
    Mr. Hall. OK. I will accept that.
    Mr. Perciasepe. So I would----
    Mr. Hall. I want to also say and just read you some of what 
his statement was. He said, ``But as I said, oil and gas is an 
enforcement priority. It is one of seven, so we are going to 
spend a fair amount of time looking at oil and gas production, 
and I was in a meeting once and gave an analogy to my staff 
about my philosophy of enforcement, and I think it was probably 
a little crude and maybe not appropriate. It was kind of like 
how the Romans used to conquer little villages in the 
Mediterranean. They would go into a little Turkish town 
somewhere. They would find the first five guys and they would 
crucify them, and then you know that that town was really easy 
to manage for the next few years.'' That was his statement. So 
as you make examples of people who are in this case not 
complying with the law, fine people who are not in compliance 
with the law and you hit them as hard as you can. May I have 
permission to have this inserted into the record, Mr. Chairman?
    Mr. Whitfield. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Hall. And I would just like for you to explain, given 
the evidence that we have seen of his indisputable bias against 
the fossil fuel industry including this transcript that is 
going to be in the record, and it is in the Senate record also 
of his comments about wanting to crucify oil and gas companies, 
which I have offered for the record, so I guess my question to 
you is whether or not you will commit to me to reexamine the 
decision and ensure that EPA applies a standard and methodology 
consistent with all EPA regions.
    Mr. Perciasepe. Of course I can commit to that. That 
statement and the policy that it might be implicated with is 
not the policy of EPA. EPA's policy is the fair application of 
the law.
    Mr. Hall. Well, it hasn't been. It hadn't been based on 
science, and we have proven that many times. I yield my time. I 
hear the gavel.
    Mr. Whitfield. The gentleman's time is expired. At this 
time I will recognize the gentleman from California, Mr. 
McNerney, for 5 minutes.
    Mr. McNerney. I thank the chairman for holding this hearing 
and I thank the Acting Administrator for coming. I am going to 
explore a local issue, if you don't mind too much.
    The State Revolving Fund programs provided more than $5 
billion nationally each year for water quality projects such as 
wastewater treatment, nonpoint source pollution control, 
watershed and estuary management. These programs' missions 
address many of the issues that face California's current water 
systems. Meanwhile, the controversial Bay Delta Conservation 
Plan, a minimum $15 billion project, continues to receive 
resources from federal government despite serious doubts about 
its environmental attributes and benefits. Do you believe it is 
prudent for the State of California and federal agencies to 
commit scarce resources to the BDCP before the State even uses 
the $455 million that has already been allocated and unused 
through the State Revolving Fund?
    Mr. Perciasepe. There are many needs, and our general 
objective is to make sure that we work with the States to get 
those funds into use and so that is what we are doing across 
the country.
    Mr. McNerney. OK. Well, I just want to submit that that is 
a dubious plan and it is receiving federal resources despite 
the fact that the State has already got a large chunk of money 
that is unused.
    The EPA along with other agencies will analyze proposed 
actions related to the Bay Delta Conservation Plan, but as 
currently drafted, the BDCP will consist of two large tunnels 
capable of diverting the entire Sacramento River around the 
Sacramento Delta. As currently drafted, do you believe that 
that's a permittable plan?
    Mr. Perciasepe. I think we are in the process of reviewing 
that plan at this time, so it is an interagency process among, 
you know, Department of Interior. EPA has a small but not 
insignificant role in the review of that plan, which is being 
led mostly by the Department of Interior. So I can't--I don't 
have the evaluation yet of what the federal government thinks 
about that overall plan.
    Mr. McNerney. Well, again, I submit, that plan as currently 
drafted has serious environmental impacts in the entire delta 
including endangered species implications, so I submit that you 
look at that very carefully.
    Mr. Perciasepe. I will, and I worked on the Bay Delta Plan 
in the 1990s as an EPA employee back in the 1990s in the 
Clinton Administration, so I am personally generally familiar 
with the issue but I have not yet been participating in the 
review of that plan.
    Mr. McNerney. OK. Thank you. The NEPA would require that an 
agency must prepare a detailed environmental review discussing, 
among other issues, alternatives to the proposed actions. Do 
you believe that additional viable alternatives to the BDCP 
should be reviewed in this process?
    Mr. Perciasepe. Generally, that is what NEPA requires, as I 
think the State environmental review law in California as well, 
but again, I do know because of my past history almost 20 years 
ago now on this whole Bay Delta project that many, many 
alternatives have been looked at through the years. So I don't 
know what the status of all those are now but I will look into 
it.
    Mr. McNerney. Thank you. There is significant political 
pressure to move forward with one plan without considering the 
alternatives. So again, I submit that you look at that 
carefully.
    The EPA is required to review and publicly comment on 
environmental impacts of proposed federal projects. The EPA is 
also the official recipient of all Environmental Impact 
Statements prepared by federal agencies. How will the EPA's 
fiscal year 2014 budget request for the BDCP be used to 
continue to develop Environmental Impact Statements and 
environmental impact reviews?
    Mr. Perciasepe. I believe that division in our agency is 
adequately funded in the 2014 budget to carry out its duty of 
reviewing the Environmental Impact Statements that we receive. 
We don't allocate it for every project. It is just a unit in 
the agency.
    Mr. McNerney. Well, what I was trying to get at was, how 
much money is being allocated or used for those processes and 
other processes related to the BDCP? So if you could submit 
that?
    Mr. Perciasepe. Yes, we will.
    Mr. McNerney. Thank you. I yield back.
    Mr. Whitfield. At this time I recognize the gentleman from 
Pennsylvania, Mr. Murphy, for 5 minutes.
    Mr. Murphy. Welcome here. There are questions I wanted to 
address here. First of all, I noticed in your opening statement 
here in the second paragraph, you said the President's fiscal 
year budget demonstrates that we can make critical investments 
to strengthen the middle class, create jobs and grow the 
economy while continuing to cut the deficit in a balanced way. 
In the past, the Administrator of the EPA when before us has 
said they did not take into account the impact on jobs of 
environmental policies, and I just wonder if your statement is 
a reflection of a change in policies and that is that creating 
jobs is important and you will be taking into account job 
impact of EPA policies. Is that true?
    Mr. Perciasepe. I think it would be within anyone's 
commonsense mind that job creation is an important priority, 
and while that is not the provisions in some of the 
environmental laws that we are given by Congress, it is 
certainly something we look at in our economic analysis of our 
rules.
    Mr. Murphy. I would hope so, because I know I represent a 
lot of coalminers, I represent a lot of people that deal with 
natural gas, nuclear, and when we are looking at hundreds of 
thousands of people in the coal-related industries losing their 
jobs, I oftentimes think one of the greatest threats to the 
environment is poverty because when you have no money, it is 
hard to care about other things. So I appreciate that.
    I also want to know, with regard to sue and settle, are you 
familiar with what the concept of sue and settle is and the 
accusations that the EPA may meet with or communicate in any 
way with outside groups the results on a lawsuit with 
environmental groups who are suing the EPA or the U.S. 
government and then the EPA continues to meet or communicate in 
any way whatsoever to come up with some sort of a settlement as 
another way of having a regulation go through. Has the EPA ever 
engaged in sue-and-settle practices, sometimes referred to as 
friendly lawsuits, with environmental groups, to your 
knowledge?
    Mr. Perciasepe. Well, the way you described it, I would say 
no, but we get sued and we do settle them. So----
    Mr. Murphy. But are there discussions then between the EPA 
and these groups? Many times these groups will move to bypass 
the legislative process and will sue and then the EPA works 
with them to come up with a regulation, and does that happen?
    Mr. Perciasepe. Well, when we are sued, about 70 percent, 
maybe a little over 70 percent of the lawsuits that come 
against the EPA are on mandatory duties that we have under the 
laws that Congress enacted, and we didn't make the deadline or 
there is a periodic review that we didn't do, and so those 
settlement discussions are often about what the schedule should 
be, because we didn't meet the schedule that Congress----
    Mr. Murphy. And a lot of those are by environmental groups. 
Am I correct?
    Mr. Perciasepe. Some are environmental groups, and some are 
by business groups, but they are not on matters of law, they 
are on matters of schedule.
    Mr. Murphy. Well, sometimes they are also pushing for some 
issues too such as enforcement activities there along those 
lines, and I know that, you know, certainly environmental 
groups have a right to stand up for the things that they 
believe in. That is fine. It has been brought up before about 
concern about these groups having some favored practice with 
the EPA with regard to having fees waived. I think a number of 
us are concerned about what may be a culture of conspiracy and 
abuse of power and abuse of the public trust when it favors any 
group over any other groups. And certainly I think it violates 
a fundamental pillar of our Nation with regard to fairness and 
freedom and democracy, that no one should be above the law, 
whether it is the IRS targeting some groups, pro-Israel groups, 
conservative groups or difficulty this committee has with 
getting information on Solyndra or other committees have with 
Fast and Furious and Benghazi, etc. I got to tell you 
oftentimes it has left this committee it is difficult if not 
impossible to trust agencies that have some ties with some 
other political motivation to nurture some and silence others.
    Now, I want to know if it will be a change in the practice 
of the EPA to either give everybody waived fees with FOIA or 
everybody will have to pay. I don't know another way around it. 
When you are talking about 90 plus percent in one direction and 
90 percent in another, it is hard to deny that there is some 
other motivation there. And so I wonder if this is going to be 
a change in some policy of the EPA that we can look to to say 
that they are going to treat everybody with the same fairness.
    Mr. Perciasepe. Well, our policy is to treat everybody the 
same on that, on everything we do.
    Mr. Murphy. Well, along those lines too, I hope you will 
submit for the record too, let us know how much the value of 
those waived fees are, because obviously if that's not needed 
by the EPA, that might be an area we can make some changes.
    Mr. Perciasepe. I absolutely would, and as I mentioned 
earlier in a response to a question on this matter, even when 
fees are not waived under the process that is currently there, 
it is frequent that there are no fees involved anyway because 
of the nature of the way we do it these days electronically, 
but we will provide that information to you.
    Mr. Whitfield. The gentleman's time is expired. At this 
time I recognize the gentlelady from Florida, Ms. Castor, for 5 
minutes.
    Ms. Castor. Thank you, Mr. Chairman, and good morning. 
Thank you for being here to review the EPA budget.
    I represent the Tampa Bay area in Florida, and my local 
communities truly value the partnership that they have with the 
U.S. Environmental Protection Agency, whether it is the 
brownfields initiative where the city of Tampa just won a 
substantial grant to help put some contaminated property back 
into productive use for some business owners there or it is the 
legal refit initiative that the city of St. Petersburg won a 
grant for that is going to help clean the air and help them 
change over their fleet, or whether it is the Clean Water 
Revolving Loan Program or Drinking Water Revolving Loan Program 
that are substantially underfunded, and are underfunded in this 
budget again and then are suffering another reduction. These 
are--when we are talking about job creation, these are 
important and very modest investments that help our communities 
create jobs, whether it is the brownfields or the business 
owner that has an opportunity to expand a business because that 
property is no longer contaminated or the engineering firm or 
construction firm that is hired to fix the old pipes that we 
have miles and miles of these old leaky pipes throughout our 
community. We have to recognize the leverage we get through 
those important but very modest investments create a lot of 
jobs. So we value that partnership, and I wish that the United 
States Congress would end the sequester, replace the sequester 
so that we can continue to make those job-creating investments.
    But I wanted you to focus today on a great success by the 
EPA, and that is fuel economy standards, and all you have to do 
is get in your car and see the types of cars that Americans are 
purchasing right now, and one personal story. I am a member of 
a family who leased one of those new hybrid plug-in electric 
vehicles in October of last year. It came from a dealer with a 
full tank of gas, and since that time he has never been to the 
gas station and is averaging about 500 miles per gallon, has 
never been to the gas station since the car was leased in 
October. It is remarkable. It is kind of a revolution what is 
going on in that field, but just in fuel economy, if you look 
at what is happening with the ability to put money back into 
the pockets of American consumers because the Obama 
Administration and a couple Congresses ago pushed and said the 
technology exists. Could you quantify what has happened with 
fuel economy, summarize what kind of savings consumers have 
realized over the past few years, the money back in their 
pockets, the clean air benefits and then the recent 
announcement to go even further?
    Mr. Perciasepe. Yes. I thank you for those comments, and I 
think, as you have already pointed out, to put a little bit of 
measure into it, you know, obviously for the fuel economy and 
greenhouse gas standard combined, a program that we have put in 
place to provide level playing field for all the automobile 
manufacturers and coordinate with DOT and the State of 
California to make sure that it is all the same and working 
together, that is going to double the average fuel economy for 
American automobiles by 2025, and every year the fleet fuel 
economy is going to continue to improve and the amount of 
pollution from it is going to continue to go down, so you are 
going to have significant public health benefits and you are 
going to obviously have savings at the pump, and we would 
expect over the life of that program compared to the way 
vehicles are today that we are probably talking about over $1 
trillion of savings over time.
    Now, that translates not into more money into the economy. 
That would also, you know, as people purchase things or 
whatever, create jobs, but it also improves our national 
security because we are reducing every year our dependence on 
imported oil. We are not there yet and we have production 
growth as well in the country of our natural resources. So when 
you look at all these things together holistically, we really 
are improving our overall profile. I could probably tell you 
the public health benefits because somebody just gave me the 
piece of information here, but for nitrogen oxide, it is 6.9 
million tons VOCs, 592 million tons. The net benefits that we 
have calculated on the public health side is about 174 billion. 
So I appreciate your question.
    Ms. Castor. Thank you.
    Mr. Whitfield. The gentlelady's time is expired. At this 
time I will recognize the gentleman from Texas, Dr. Burgess, 
for 5 minutes.
    Mr. Burgess. Good morning, and thank you for being with us 
this morning. Thank you for your forbearance in this lengthy 
interview process, but it is important, and I think you would 
agree with that.
    Mr. Perciasepe. Absolutely.
    Mr. Burgess. I too drive a hybrid. I have had it for 10 
years' time. Back when I bought my hybrid, the price of 
gasoline was actually a lot less so I can't really say I bought 
it because I am cheap, which I am, but I really bought it 
because then I could have that sense of moral superiority that 
a hybrid affords you, and I still enjoy that today.
    Let us talk a little bit about some of the things that have 
come up during this hearing. First off, what is the mission of 
the EPA?
    Mr. Perciasepe. I am sorry. Say that again.
    Mr. Burgess. What is the mission of the EPA? What is your 
core function?
    Mr. Perciasepe. Well, our mission obviously is to protect 
public health and the environment.
    Mr. Burgess. Stop there. That is good. That is a sound 
bite. I will accept that.
    Mr. Perciasepe. But if you go to the next level, it is 
essentially to implement the laws that Congress has enacted for 
EPA to be the----
    Mr. Burgess. And will accept that as secondary. Now, we 
have heard a lot of discussion here this morning about the 
sequester and the effects of the sequester, how it should be 
undone, but, you know, I will just simply ask you, you are the 
boss of the EPA, right? You are the head honcho of the EPA?
    Mr. Perciasepe. The current acting head honcho.
    Mr. Burgess. Right. It is head honcho. We keep it simple 
here for this committee. And your boss is?
    Mr. Perciasepe. President Obama.
    Mr. Burgess. Correct. And President Obama in August of 2011 
signed a very famous law now called the Budget Control Act, did 
he not?
    Mr. Perciasepe. I am certain he did.
    Mr. Burgess. And incorporated in that Budget Control Act 
was a condition known as the sequester. Is that correct?
    Mr. Perciasepe. Yes.
    Mr. Burgess. It was something that was asked for by the 
Administration, asked for by Jack Lew who at the time was chief 
of staff or head of Office of Management and the Budget. They 
asked Congress to pass this law. The Congress accommodated. 
Now, to his credit, the President has not had to come back to 
the Congress with another debt limit discussion since August of 
2011 so you could certainly argue he achieved his goal of 
wanting to get past Election Day and then some so that worked. 
Now, why is it that you as his agent at the Environmental 
Protection Agency cannot perform your core mission under the 
guidance of your President who said there will be a reduction 
in funding for the EPA under the sequester. Why is it you are 
having trouble doing that?
    Mr. Perciasepe. Well, I am reporting to this committee the 
impacts of doing that.
    Mr. Burgess. Well, let me just ask you this. Why is it that 
it is only in federal agencies, and we certainly saw this, not 
your area but the Department of Transportation with the FAA 
flap a few weeks ago, when you got to do budget cuts, they 
immediately have to hurt people. I was in private business for 
a number of years. There were plenty of times where I fell on 
lean times and I had to look at my budget, and I had to squeeze 
7 cents out of every dollar that I spent. Otherwise I wasn't 
going to be able to provide my core mission. And we did it, but 
I didn't lay off my scheduler. I did it in a way that allowed 
the business to continue to function and continue to take care 
of those patients who came into my medical practice. Why is it 
when in the private sector when times get tough and you have 
got to make budget cuts we try to do those in a way that 
minimizes the impact on our clients, patients or customers, and 
yet in federal agencies, let us extract the maximum amount of 
pain. Why is that?
    Mr. Perciasepe. Well, I can't ascribe to that particular 
point of view. But I am giving you the information as best I 
can of what those across-the-board kinds of reductions have 
done in our agency. The flexibility that you just suggested 
that you have in private industry is not afforded to me as the 
head of the Agency because I have to make the cuts in every 
program. And within that----
    Mr. Burgess. You have some discretionary authority, I would 
submit and look, you know, you have got some stuff listed here 
of things that--and I realize it wasn't your helm at the time 
but in 2012 Lisa Jackson goes to the United Nations Conference 
on Sustainable Development, referred to as Rio Plus 20, Agenda 
21, whatever you want to call it. How much did we spend to do 
that? How much did we spend to send Lisa Jackson to Rio Plus 
20?
    Mr. Perciasepe. I don't know the answer to that.
    Mr. Burgess. Can you find that out and get that information 
back to me?
    Mr. Perciasepe. Certainly.
    Mr. Burgess. It seems to me that would be a far better 
place to cut rather than when Henry Waxman goes through you are 
cutting radiation safety and air quality, this would be a 
better place to cut, and if I were to advise you on how to look 
at your budget and make it work and comply with your core 
mission, these are the types of activities I would ask you to 
look at, and I cannot believe your boss, the President, did not 
do that, and I think that is a failing on the part of the 
Administration because they did ask for the sequester. 
Remember, that was the baseline.
    Mr. Perciasepe. I mean, I can attest to the fact that he 
signed the bill but I was not involved with any of the 
negotiations.
    Mr. Burgess. And I appreciate that you weren't.
    Mr. Perciasepe. But----
    Mr. Burgess. But you are now to do the job, correct?
    Mr. Perciasepe. Yes, I am, and I just want you to know that 
I did cut the Agency's travel budget in half.
    Mr. Burgess. Good for you. Eliminate it. Thank you, Mr. 
Chairman. I will yield back.
    Mr. Whitfield. At this time I recognize the gentleman from 
Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman. I appreciate that.
    Let me tell you that I was going to ask about the 
discrepancies on the FOIA matter but I believe that has been 
covered. However, I had originally intended to drop that 
question but I don't want you or anybody else to believe that I 
think it is a waste of time ever to try to reassure this 
committee and the American people that we are trying to have a 
just system, and the appearances, as previous folks have said, 
the appearances are that when it comes to waiving the fees that 
it has not been just, that somebody is placing their finger on 
the scales of justice. I believe that what you have laid out 
talking to the Inspector General and all makes sense, but I 
don't want anybody thinking that we think it is a waste of time 
to try to assure the American people that we are setting up a 
just system.
    Mr. Perciasepe. I don't believe that for a minute.
    Mr. Griffith. And I appreciate that.
    Mr. Perciasepe. It is one of my most important 
responsibilities as a public servant.
    Mr. Griffith. And as a part of trying to make sure we have 
a just system, there have been concerns with the sue-and-settle 
process that the EPA frequently agrees to, what we believe to 
be unrealistic deadlines for issuing major rules that are going 
to impose massive new costs on businesses and consumers. The 
schedules the EPA agrees to may not allow the EPA enough time 
to collect the data the Agency needs or enough time for the 
public to review the rule and offer meaningful comment. Can you 
commit that going forward the EPA will consult with affected 
stakeholders before committing to those deadlines?
    Mr. Perciasepe. One of the things that I am committed to 
doing is when there is a request for a--when we have a petition 
or request to do a rulemaking on whatever schedule to post that 
request on the Web so that all the stakeholders can see it, and 
then whatever process that is required under the Administrative 
Procedures Act, et cetera, which is also----
    Mr. Griffith. Well, I would encourage you to go a little 
bit further than just posting, although that certainly would be 
helpful, because I believe that as we go forward being more 
transparent and involving all the affected stakeholders in the 
process will help ensure that the EPA does not commit to 
unrealistic deadlines.
    In the case of the Clean Air Act, consent decrees before 
they are entered by the court, there is a statutory opportunity 
for the public to comment. Does the EPA publish copies of the 
actual rulemaking settlements and proposed consent decrees in 
the Federal Register?
    Mr. Perciasepe. All the consent decrees under the Clean Air 
Act for sure have to be published in the Federal Register.
    Mr. Griffith. But is that done? When you are discussing 
this, there is supposed to be an opportunity for the public to 
comment before they are entered by the court. Do you put it 
into the public register before the court enters a decree?
    Mr. Perciasepe. Right. It goes out for public comment, and 
then when the public comment period is over, the comments are 
reviewed and then that is when it gets entered into the court.
    Mr. Griffith. All right. Does this opportunity for public 
comment ever result in changes to a settlement? Because we are 
only aware of one instance where involving technology and 
residual risk reviews for various source agents where that 
occurred.
    Mr. Perciasepe. I don't have that information.
    Mr. Griffith. Can you get that information?
    Mr. Perciasepe. I can certainly get that for you. I do know 
that we also get--once we complete some rulemaking, we often 
get requests for reconsideration of those rules as well, and 
which we have done on many occasions.
    Mr. Griffith. And I appreciate that. Sorry, my time is 
short. I have got to keep moving.
    Mr. Perciasepe. Yes, sir.
    Mr. Griffith. There are some in the Agency in the past 
related to Utility MACT and other regulations that have 
indicated that coal-fired power plants are not being retired 
because of regulations but because of the low cost of natural 
gas. Of course, natural gas costs are going back up. But while 
some have made that argument, and we have retired 41,000 
megawatts of coal-fired generation, there is a Duke University 
Nicholas School of the Environment report that has concluded 
that the cost of complying with tougher EPA air quality 
standards could spur an increased shift away from coal and 
toward natural gas for electric generation. Also, an April 23 
of this year analysis, the Energy Information Administration 
explained that the interaction of fuel prices and environmental 
rules is a key factor in coal plant retirements. How do you 
make the two of those fit? And I would submit that what you 
have got is that the regulations are in fact retiring these 
plants, and like Mr. Rush said earlier, he is concerned about 
what happens to poor folks. In my district, they are having a 
hard time paying their electric bills and their food and their 
drugs, particularly for my elderly who are trying to survive on 
a fixed income, and I am just wondering if the EPA takes any of 
that into consideration when they are trying to make these 
decisions, because when I raised this last year with your 
predecessor, she said--or I guess it was a year and a half 
ago--she said ``We have programs to take care of that,'' but in 
the budget, not your budget but in another part of the budget, 
the President actually cut the LIHEAP program, which would have 
helped folks with their heating bills and their electric bills. 
How do you justify or make all that work together?
    Mr. Perciasepe. Well, first of all, we do analyze what we 
think the impact of the regulations will be on potential 
closures, and you are correct that it is a complex mix of what 
the age of a plant is, what it would cost to continue to keep 
it running and fix it up versus modernizing with another kind 
of plant. Our estimates continue to show that a very small 
amount but not a zero amount of the changing that is going on 
in the industry, which has been going on for 10 years, is not 
due to the regulations but the regulations no doubt have a role 
to play there, and we have analyzed that and we have been 
public about it.
    I know that this has come up several times, and, you know, 
I went ahead and looked a couple of weeks ago at what the 
projections are, even under the current situation that you are 
bringing up here, that EIA and others have put out there, what 
coal production and coal usage for electric generation will be 
in the future, and it is still fairly robust. I mean, there is 
no expectation on our part nor desire on our part to have coal 
not be part of the diversity of fuels that are available for 
electric generation in the United States, and all of our 
projections including EIA's show that it will continue to play 
a role.
    Mr. Whitfield. The gentleman's time is expired. At this 
time I recognize the gentleman from Ohio, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman. Mr. Perciasepe, 
baseball practice is at 6:30 in the morning. If you want to 
know where it is at, I play, so I can give you directions.
    Mr. Perciasepe. I think Mr. Hall was saying if I am invited 
to the committee, and I was going back to the other one.
    Mr. Johnson. Oh, oK.
    Mr. Perciasepe. I will of course come if the committee 
invites me.
    Mr. Johnson. OK. Great. As the former Assistant 
Administrator for Air, you are well aware that under the Clean 
Air Act, the agency historically has always subcategorized fuel 
types, not just between coal and natural gas but sub-coal types 
such as subbituminous or lignite. Why did the Agency break with 
that tradition on the NSPS for greenhouse gases and set one 
standard, a natural gas standard?
    Mr. Perciasepe. Well, I think when the proposal was made, 
there was some careful consideration that there would be 
technology available that would enable everybody to meet the 
same performance standard. Because there is some question about 
the technology, that proposal actually recommended a 30-year 
averaging period so that, you know, you would allow the 
technology to catch up. So we felt like there was an ample 
opportunity for a diversity of fuels there regardless of the 
single performance standard. That said, we have received, as I 
think you know, significant comment on this issue and it is 
certainly something that we are trying to analyze ourselves 
right now as to what the final rule will look like.
    Mr. Johnson. So will the new NSPS rule that comes out of 
the EPA have not only subcategories for fuel types for coal and 
natural gas but also back to those sub types for different 
types of coal?
    Mr. Perciasepe. Well, we are looking at the comment that we 
got on that. I can't say what the final one is going to be yet 
because we are still in that process.
    Mr. Johnson. I would certainly urge you to consider that 
because it leads me to my second line of questioning here 
dealing with cost and benefits. As regulations become more 
complex and expansive, would you agree that impacts may affect 
more than just the directly regulated sector due to price 
effects and other costs that ripple through the economy? Would 
you agree that taking fuller measures and estimates of energy 
price effects and other costs up front would be important for 
fuller understanding of regulatory impacts economy-wide?
    Mr. Perciasepe. I think that this issue is a pretty 
important issue and it is one that we have been working on what 
kind of analytical tools can we get that would really enable us 
to do that. You just heard me answer the member from California 
about the--no, Florida, I am sorry--about the fact that the 
fuel economy/greenhouse gas rules for the cars are going to cut 
the amount of gasoline in half and that translates into less 
money spent, and then that money obviously will have another 
potential benefit in the economy.
    Mr. Johnson. But you are talking about benefits.
    Mr. Perciasepe. Right.
    Mr. Johnson. What about the cost implications to the 
industries?
    Mr. Perciasepe. Right. We have to look at both of those 
when we do this, so we are committed to continuing to move in 
that direction and I have actually had some conversations with 
the Senate committees about convening some panels to----
    Mr. Johnson. Well, our committee has heard testimony that 
for its major air rules, the EPA has failed at least during 
this Administration to look at the economy-wide impacts. We 
understand that economic modeling can more fully account for 
the economy-wide impacts of regulations by measuring the ripple 
effects of prices through other sectors of the economy not 
directly affected by the regulations. This provides a fuller 
picture of job shifts and other economic impacts. We understand 
that since 1997, the EPA has conducted economy-wide modeling of 
regulatory impacts just two major air rules both in 2005. Can 
you explain why the EPA has not performed such modeling during 
this Administration?
    Mr. Perciasepe. The models that exist are not adequate to 
do what you are suggesting. There were attempts to do it and--
--
    Mr. Johnson. What are you doing to update the modeling?
    Mr. Perciasepe. I was trying to answer you, that I have 
suggested to your Senate counterparts that we convene a panel 
of economists and look for advice from them on what kind of 
models we can use to do this kind of impact across that looks 
at both the benefits and the costs, because if you are going to 
look at the whole economy, you have got to look at both sides 
of that equation.
    Mr. Johnson. Can I then take that going forward? It sounds 
like you are making a commitment that the EPA will undertake in 
the coming fiscal year to look at the economy-wide impacts of 
its major rules using state-of-the-art economic modeling. Is 
that what I am hearing?
    Mr. Perciasepe. What you heard me commit to do is to try to 
find out if there are models that we can actually do that with, 
so----
    Mr. Johnson. I mean, this is 2013. We have got a lot of 
smart people, particularly in the EPA. Surely you can find a 
modeling methodology. We are pretty good at this kind of stuff. 
Am I hearing that you are making a commitment to address the 
modeling?
    Mr. Perciasepe. We are going to convene an expert panel of 
economists to give us some advice on that. We have done some of 
it. We have done it on our 812 cumulative impact analysis on 
the Clean Air Act. We have done it on a couple of rules. 
Getting the benefit side right as well as the cost side right 
is the tough piece.
    Mr. Johnson. Mr. Chairman, I yield back.
    Mr. Whitfield. The gentleman's time is expired. At this 
time I recognize the gentleman from Louisiana, Dr. Cassidy, for 
5 minutes.
    Mr. Cassidy. Sir, thanks for coming. Listen, it just so 
happens this morning I was meeting with some folks who are 
wholesalers of fuel, and so they tell me that in October of 
2011 the EPA Office of Underground Storage Tanks announced a 
proposed revision to the 1988 Federal Underground Storage Tank 
regulation, and industry stakeholders along with the Petroleum 
Marketers Association of America submitted comments. EPA 
estimated the compliance costs to be about $900 per year per 
facility while the petroleum marketers and others estimate true 
costs to be $6,100 per year. Now, of course, this concerns 
them, and they are requesting that the EPA withdraw the 
proposed rule, which is to be finalized in October of 2013, 
this year, and form a small business regulatory advisory panel 
to determine the true compliance costs. They tell me a letter 
was received from EPA, and the letter did not agree to the 
regulatory advisory panel. I mean, here is a bunch of folks, 
some of whom are mom-and-pops, some of whom are large, and they 
are looking at a compliance cost of $6,100 a year, and I gather 
this is for the double tanks, not for the older steel with 
fiberglass but the current double tanks, so the ones which 
presumably are safer. Of course, this is a concern.
    Now, I heard about this issue this morning but I am here to 
represent those folks providing services. Your thoughts on this 
and what we can do about it?
    Mr. Perciasepe. Let me make sure I understood. You said 
there was a response already presented?
    Mr. Cassidy. There was a letter sent back, and apparently 
there still remains disagreement as to what the true compliance 
costs are.
    Mr. Perciasepe. Well, I am not familiar with the specific 
issue that you are bringing up, but I can commit to you and to 
the committee that I will look into it personally, find out 
what the issues are. I do quite a bit of work myself with the 
small business part of our agency both in terms of our own 
acquiring of services as well as, you would be interested to 
know, almost 50 percent of our purchasing of services as an 
agency is by small businesses. But I am sensitive to this and I 
will find out what it is and get back to you.
    Mr. Cassidy. True compliance costs, and if there is a 
reluctance to form that advisory committee or at least have 
some ad hoc committee which comes to agreement.
    Mr. Perciasepe. I understand what those panels are, yes.
    Mr. Cassidy. Secondly, in a previous hearing on 
formaldehyde, we had a report from the National Academy of 
Science, which pilloried the methodology used by EPA, and at 
the time I understand there were other critiques, very sharp, 
about how EPA is basing their regulations. Now, I am a doc, I 
am a physician, and I keep on wondering if the criticism is 
that your methodology is unclear and those articles selected 
among the many to choose from do not support the conclusions, 
in this case causing cancer or such like that. Why can't EPA 
beginning tomorrow to write documents that have clear 
methodology and have the same sort of standard that a peer-
reviewed journal would require for such a thing? So one, my 
question is, why not, and two, if you say you are going to do 
so, when would that begin?
    Mr. Perciasepe. And I would agree with you, why not. So 
after we got that report a couple years ago, we immediately 
embarked on a modification of how we do those programs. We have 
done a couple of them already. We submitted them back to the 
National Academy of Sciences to see if we are getting it right. 
We hired a new head of that part of our Office of Research and 
Development who is in the process of putting some additional 
modifications of that together, and we expect to be getting 
that out in the public shortly. So we are in the middle, if not 
near the end, I hope----
    Mr. Cassidy. So I know that some of these rules take a 
while to develop. Those that are halfway through the process, 
will they be redone to include this new, improved kind of 
standard methodology?
    Mr. Perciasepe. We are trying to catch as many of them as 
we can. Keep in mind, these are the science assessments; they 
are not the actual----
    Mr. Cassidy. Let me get one more question if I can real 
quickly. Also, oftentimes EPA will make a rule, and I gather 
that the data are not made public, at least Congress doesn't 
know what the data are, and this may be related to it being 
proprietary, but heck, they are doing it with federal funds, 
and I know there is a big push to have those medical research 
papers done with federal funds to have open source or free 
download. It seems like if this is being done with an EPA 
grant, we should be able to see those data as should anybody 
who would want to look at that methodology. Do you see where I 
am coming from?
    Mr. Perciasepe. Yes.
    Mr. Cassidy. Any thoughts about that? What is the obstacles 
to getting the data? Can we start making that database?
    Mr. Perciasepe. There are two categories of information 
that fall into this world. One is sort of a computer model and 
survey instruments and questionnaires that are used in the 
gathering of the information, and then of course there is the 
information itself. You have to sort of look at those things 
together. So whenever--so in the particular instance where we 
are currently working on this issue, we obviously don't 
currently have the data in our possession. So we have to work 
with the researchers and the other funders. Usually there is 
many, many funders, even if EPA is a small funder. So yes, we 
understand this issue and, yes, we are in the process of trying 
to, in the case of some of the particulate matter, 
epidemiological studies that I think you are probably referring 
to, we are in the process of trying to get some of those 
questionnaires and the front-end part of the data and then we 
are going to probably continue talking to the researchers 
about----
    Mr. Cassidy. I will yield back. We are out of time. You 
have been generous. But I would say, wouldn't it be great in 
terms of your contract up front you said your condition of 
accepting this contract is that this must be made public.
    Mr. Whitfield. At this time the chair recognizes the 
gentleman from Colorado, Mr. Gardner, for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman, and thank you, Mr. 
Perciasepe, for your time in front of this committee.
    Just a quick question. Are you familiar with the Colorado 
Regional Haze State Implementation Plan?
    Mr. Perciasepe. I know one exists but I can't tell you----
    Mr. Gardner. If you don't mind, I have some questions for 
you for the record to follow up.
    Mr. Perciasepe. Yes.
    Mr. Gardner. I wanted to just shift a little bit over to 
some budget questions. We have heard people on this committee 
characterize the budget reductions as a result of sequestration 
as catastrophic, as ending the world as we know it. Maybe 
people believe that. Talking about dire consequences with the 
reductions, and I think it is what, a 3.5 percent reduction 
overall to the EPA budget from 2013 to 2014?
    Mr. Perciasepe. From 2012. Well, 2013, it is lower because 
of the sequestration.
    Mr. Gardner. About a 3.6 percent reduction, 3.5 percent 
reduction. And you are aware that almost 80 percent of the 
households in America had about a 2 percent tax increase at the 
beginning of this year?
    Mr. Perciasepe. Our budget in 2012 was $8.45 billion, and--
--
    Mr. Gardner. So it----
    Mr. Perciasepe [continuing]. This request is $8.15 billion.
    Mr. Gardner. So you are aware, though, that most Americans, 
almost 80 percent of households experienced a 2 percent tax 
increase at the beginning of this year, a payroll tax increase?
    Mr. Perciasepe. I have no reason to----
    Mr. Gardner. But I just want to just talk a little bit 
about the budget here. I have some charts I would like to share 
with you. This chart--we talk about budget cuts and what is 
happening. We talk about the impact that they have had on the 
EPA. This chart shows agencies with the most regulatory actions 
reviewed by OMB from 2009 to the present. Well, EPA is second. 
You have the second-most regulatory actions reviewed by OMB, 
the second-most concluded by OMB, and actually it looks like 
you have the highest number of actions pending, and this is 
despite cataclysmic budget cuts. If you look at the EPA rules 
finalized and published in the Federal Register, this chart 
shows that you have a--in 2012 you finalized 635 rules spanning 
5,637 pages, this despite record budget cuts that would be 
ending the world as we know it. This chart here shows agencies 
with the most regulatory actions currently under review, going 
back to the other chart, EPA, 21, the highest of any of these 
agencies. Are you familiar--you were not there in 2009. Are you 
familiar with the budget in 2009, EPA's budget in 2009? It is 
about $7.6 billion in 2009. The budget request for 2014 is 
about $8.1 billion, so about half billion dollars difference.
    In 2010, the EPA budget was about $10.3 billion, which was 
a 30 percent increase from 2009. So the budget has come down a 
little bit at the EPA. The budget request right now is about 
$296 million less than the 2012 enacted level. Isn't it true 
that in this year's EPA budget, you are just requesting half a 
billion dollars more than the Agency received in 2009? Is that 
correct?
    Mr. Perciasepe. We are requesting less than we received in 
2012.
    Mr. Gardner. But in 2009, it is about a half a billion 
dollars more.
    Mr. Perciasepe. In 2009 and 2010, there was a large influx 
of infrastructure money under the America Recovery Act and 
related infrastructure money.
    Mr. Gardner. Is the air cleaner today than it was in 2009?
    Mr. Perciasepe. I would hope so.
    Mr. Gardner. Will the air be cleaner next year than it was 
in 2009?
    Mr. Perciasepe. I would hope so.
    Mr. Gardner. And so we are doing that despite the fact that 
there have been budget reductions.
    Mr. Perciasepe. Well, the regulations we put in place every 
year, the cars are cleaner, so every year we buy 13 million new 
cars, thank goodness, and then----
    Mr. Gardner. And so that is happening despite the budget 
reductions.
    Mr. Perciasepe. Because of the regulations, and that will 
happen in the future because of the regulations----
    Mr. Gardner. Despite the budget reductions.
    Mr. Perciasepe. First of all, let me just say, the numbers 
you have up there don't appear to match the numbers that I 
have. I mean, the ones that are in----
    Mr. Gardner. We are happy to take your numbers.
    Mr. Perciasepe. Well, all right. My numbers are for the 
first 4 years of this Administration, we finalized or proposed 
434 rules compared to 536 the last 4 years of the last 
Administration. So I have very different numbers on----
    Mr. Gardner. I am happy to look at those numbers.
    Mr. Perciasepe. However----
    Mr. Gardner. We can make new charts with your number. But I 
just asked a question. Are we reducing air pollution at an $8.1 
billion request as we were with $7.6 billion? Are we going to 
have cleaner air next year?
    Mr. Perciasepe. Well, if I point to the automobiles as a 
particular example----
    Mr. Gardner. So the answer is yes?
    Mr. Perciasepe. The regulations that we put in place have 
been since 2009.
    Mr. Gardner. So the answer is yes? So we are actually able 
to have cleaner air today with more money than we did last 
year, with more money than we did in 2009. So even though you 
are not getting $296 million as much as you were last year, we 
are going to have cleaner air?
    Mr. Perciasepe. And I never said we weren't.
    Mr. Gardner. Good. Does the EPA track total amount of the 
new compliance costs imposing through regulations every year?
    Mr. Perciasepe. We do a cumulative assessment of the Clean 
Air Act.
    Mr. Gardner. What about other regulations? Do you track 
compliance costs on the regulations we have?
    Mr. Perciasepe. We have some retrospective studies going on 
to look at what our estimates of the costs were and what they 
ended up actually being. Usually it ends up being less.
    Mr. Gardner. Can you provide the committee with total new 
compliance costs associated with all the new rules issued by 
the Agency in 2012?
    Mr. Perciasepe. Whatever we have analyzed, we can provide.
    Mr. Gardner. Because I think if we are talking about the 
fact that EPA's budget is missing $296 million from last year, 
we have to remember that businesses are actually paying more in 
energy costs because of EPA regulations, that they are paying 
more because of payroll tax increases this year, and so when 
the EPA comes here and complains about a 3 percent budget cut--
--
    Mr. Rush. Mr. Chairman.
    Mr. Gardner [continuing]. The fact that households across 
this country have had their budgets cut, businesses have had 
their budgets cut, I think we ought to know that, and I think--
--
    Mr. Whitfield. The gentleman's time is expired.
    Mr. Gardner. I would yield back my time.
    [The charts from Mr. Gardner's presentation appear at the 
conclusion of the hearing.]
    Mr. Whitfield. At this time I recognize the gentleman from 
Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. Again, I welcome our 
colleague. I know, Mr. Perciasepe, you have been here a while 
now.
    I personally have been very interested for a number of 
years on the issue of electronic waste, and I have been working 
on the issue. We actually have legislation the last couple 
terms, and I have noticed that some in EPA believe the Agency 
should spend money and build capacity for managing e-waste in 
developing countries. While I agree that these countries need 
to do more to develop their capacity to manage their own e-
waste, we must address the e-waste problem we have 
domestically. Greater investment in responsible recycling here 
at home could go far in helping curb e-waste problems overseas.
    The committee recently held a briefing with the U.S. 
International Trade Commission regarding its study on e-waste 
and found that several industrialized countries such as Sweden, 
Belgium and Korea have high-tech smelting facilities that 
specialize in recovering gold, copper and valuable metals from 
the electronic waste. We were also told that no similar 
facilities operate in the United States. First of all, how much 
money did EPA request for international efforts to address 
electronic waste?
    Mr. Perciasepe. I am afraid I don't know.
    Mr. Green. I think we can find that out. I guess one of my 
concerns is, coming from an industrial area, it seems like we 
might have some impediments for creating one of those 
facilities, a high-tech smelting operation, because I know the 
problems with smelting, just like in my area, I have refineries 
in East Harris County. But is there something that the United 
States should say we want to be able to do this and create our 
own high-tech smelting operation? Obviously if these countries 
like Belgium and Sweden could be able to do it or even South 
Korea, we should be able to do it under our environmental laws. 
But we will go on to that later too at another time.
    Has EPA studied the state-of-the-art smelting facilities 
abroad that specialize in processing e-waste and recovering the 
valuable metals? Do you know of anything that the EPA has done 
on that?
    Mr. Perciasepe. We have been working in a voluntary way 
with many of the large producers of electronic products to come 
up with a long-term strategy. We have a partnership with a 
number of them. I am sure that the people who are working on 
that, and it is a priority for us to try to work on that----
    Mr. Green. If you could get back with the committee, I 
would appreciate it.
    Next question. In recent testimony, you mentioned that you 
were postponing release of the diesel guidance document for 
hydraulic fracturing and mentioned this would dovetail with a 
larger EPA study. Can you elaborate on how guidance to the UIC 
regulatory personnel and use of diesel during operation 
correlates with either the prospective or retrospective case 
study on the larger EPA study?
    Mr. Perciasepe. I will try. First of all, as you probably 
know, the Underground Injection Control program doesn't get 
involved with hydraulic fracturing as a general matter because 
of exclusions in the law, but that----
    Mr. Green. But the study was required by Congress.
    Mr. Perciasepe. The study was required by Congress. The 
fact that when diesel fuel is used remained in the law so in 
the study that is undergoing, we are working with some of the 
businesses and with some of the producers on technology and 
approaches they are using for exploration and production of 
natural gas wells, and we are looking at what the best 
management practices are, and we may learn from some of that, 
from some of the companies and some of the retrospective and 
prospective studies we are doing what new approaches might be 
available for well bore integrity and things of that nature, 
and it would seem that there is some logic to whatever we might 
do in the case where there is diesel fuel use, it would want to 
benefit from what we are learning there. I am using that as an 
example.
    Mr. Green. And I appreciate EPA, and I look forward to the 
study, but as I have said before to administrators and even our 
Energy Secretary, you know, if we make it impossible to frack, 
we shut down this huge growth in reasonably priced energy, so 
we need to make sure it is done right and done safely.
    The last thing, and Mr. Chairman, just a minute, our 
committee last Congress passed an E-Manifest bill, and it was 
for tracking hazardous waste shipments, and I appreciate EPA's 
work on that as really good bipartisan legislation came out of 
our committee, and the new electronic system will improve the 
transparency and efficiency of the data. Could you not, if not 
today, but get back with us? Because we want to do a full 
follow-up on how that is working with EPA and the success of 
it.
    Mr. Perciasepe. I think that would be a great idea. We are 
starting to formulate the approach where we come and give the 
committee a briefing on the status of that. It is a really good 
program. We are so appreciative of the work all of you have 
done on it.
    Mr. Whitfield. We will work with them on that. Thanks, Mr. 
Green. At this time I recognize the gentleman from Kansas, Mr. 
Pompeo, for 5 minutes.
    Mr. Pompeo. Thank you, Mr. Chairman.
    I want to talk about a piece of legislation I have and it 
relates to a budget item that you have as well. This year, the 
EPA's budget calls for a little less than $63 million in 
chemical risk reduction and about $3.5 million in chemical risk 
management. Included in that would be enforcement of the Clean 
Air Act general duty clause, section 112(r) of the Clean Air 
Act. Are you at least somewhat familiar with that provision?
    Mr. Perciasepe. I know what 112(r) is, yes.
    Mr. Pompeo. Fair enough. So just to be clear, operators 
have a general duty to design and maintain a safe facility if 
they are processing, handling or storing a specific list of 
chemicals or other extremely hazardous substances, which EPA 
admits is undefined because there has been no guidance, there 
have been no guidelines. In fact, Ms. Jackson testified that 
there has been no EPA definition of ``extremely hazardous 
substances'' in front of this committee. It is a very vague 
law, and I think that creates enormous regulatory risk. I think 
it is not the way to do it. This bill has been in the hopper 
for a while. In light of what happened with the Internal 
Revenue Service this week, I think specificity is very 
reasonable to make sure that agencies don't prosecute these 
things in a way that are either inconsistent across regions or 
disfavor folks whoever they might be. We saw what happened in 
West, Texas, the tragedy there related to ammonium nitrate that 
was stored on site, but that is regulated today by DHS but is 
not listed and not covered under EPA's RMP program.
    I have a couple of concerns. We have got this incredibly 
vague section which doesn't provide notice for folks on how to 
store chemicals and what chemicals are covered, and then this 
general duty clause on top of it that doesn't tell these 
operators what to do. So my legislation, it does something very 
odd for someone who sits on this side of the dais. It asks the 
EPA to issue a regulation. It asks you to clarify what this 
means. I am glad I got that out of my mouth and didn't choke. 
But I am happy to withdraw the legislation if I could get you 
today to tell me that you all will begin the process to develop 
a regulation to clarify what is in the general duty clause and 
what it is you all intend to do with that.
    Mr. Perciasepe. I certainly commit to look at that. You 
know, it has been looked at before, and because of the nature 
of what we are talking about, it gets complicated very quickly, 
and I think you are probably aware of it, and we also have the 
potential need to coordinate with other responsibilities like 
worker exposure and also national security, homeland security. 
I think we are going to find out today from the State folks 
what their best guess is of what happened at West, Texas. They 
briefed the governor yesterday and they are supposed to 
announce, I think, at noon at 1 o'clock Central Time. So I 
think what I heard was it looked like it was the ammonium 
nitrate, because what we are looking at under the Clean Air Act 
at this time is the stuff that would be getting into the air, 
which would be the anhydrous ammonia, and if the full tank of 
anhydrous ammonia at that particular facility leaked out in the 
middle of the night in the summer when everybody had their 
windows open, it would be quite a substantial impact.
    But your point is well taken. I think that in light of the 
tragedy there and in light of some of the work that you have 
been doing, it is certainly something we need to turn our 
attention to. I can't commit to any particular process at this 
time.
    Mr. Pompeo. Then I will continue to proceed, and we 
hopefully can work together to get this done. I just don't see 
why when you are in this constrained environment that we have 
been talking about all morning you would seek to go regulate in 
a space that is already highly regulated. I have to tell you, 
it continues to confound me.
    Mr. Perciasepe. Well, that is why I am in the position to 
want to look at what all the other agencies do and maybe get 
that better coordinated before I do anything else.
    Mr. Pompeo. That would be awesome. I appreciate that.
    Last thing. Some folks here this morning have used 
different words to describe EPA's budget in 2014. Some would 
suggest that it was crippling. I have probably heard that we 
are gutting various statutes. I have been in Congress 27 
months, so dozens and dozens of times. Would you use--the 2014, 
would you describe the 2014 as crippling an agency with 18 some 
thousand employees?
    Mr. Perciasepe. I think that the 2014 budget that the 
President has proposed is adequate to obviously maintain what 
we are responsible to do. I mean, we wouldn't have proposed 
that budget if it wasn't. But embedded in that budget are some 
real ideas to try to make ourselves even more efficient in the 
future, and again, I hope that the committee will see its way 
through. It has been a leader in the e-manifest, and I think 
that if you work with us on some of the other ideas to make the 
agency more efficient, it would be in everybody's long-term 
interest.
    Mr. Pompeo. We look forward to that. Thank you very much. 
Thanks, Mr. Chairman.
    Mr. Whitfield. Thank you, and Mr. Perciasepe, I am sorry to 
say this concludes the hearing. But we do appreciate your being 
with us very much this morning, and Mr. Rush and I and the 
other members look forward to having an opportunity to spend 
another morning with you soon, perhaps.
    The record will remain open for 10 days, and the staffs on 
both sides will be getting the material for a follow-up for 
additional comments from you all.
    Mr. Perciasepe. And I won't forget my commitment at the 
beginning of the hearing to get to the answers.
    Mr. Whitfield. Thank you very much, and that will conclude 
today's hearing.
    [Whereupon, at 12:36 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

               Prepared statement of Hon. Adam Kinzinger

    Administrator Perciasepe, thank you for being here today to 
provide testimony and answer questions on your agency's FY2014 
budget request.
    In the committee's role of providing oversight over EPA, we 
want to ensure that our nation's resources are protected 
according to the law while preserving individual and economic 
freedom. As we continue to experience unacceptably slow 
economic growth, it will be important that we do not apply 
additional barriers from Washington. As a budget reflects 
priorities, the focus of your agency's budget should be on how 
to best protect Americans' health and our environment without 
adding unnecessary burdens to individuals and job-creators.
    Undoubtedly, the EPA plays an important role protecting our 
nation's environment and local communities from bad actors and 
other hazards. Throughout my district there are sites being 
investigated and cleaned up under Superfund authority. To 
highlight a recent example, the town of Wedron, Illinois 
started receiving Superfund emergency funding in 2011. 
Residents of that town have been trying to identify the source 
of a contaminated water supply for nearly three decades. I have 
made it a priority to work with the EPA and the Illinois EPA to 
help solve this problem, find solutions to protect the town's 
resources, and ensure residents have access to clean, safe 
drinking water.
    I was discouraged, then, to see a budget reduction for the 
Superfund program in your agency's request. Having worked with 
the EPA with this program, I have seen how limited resources 
can delay agency actions for communities in need. EPA's 
emphasis should be on protecting taxpayers and the American 
environment first, and I would hope its budget will reflect 
that.
    As we look to spur economic growth and create better 
opportunities for Americans, it will be important that EPA 
works with the committee to help protect our environment 
without unnecessarily hurting American jobs. The EPA should not 
regulate what Congress does not legislate. I look forward to 
working with you and your agency to help achieve this balance 
and ensure Americans do not suffer under unnecessary burdens 
and regulations.
                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
